<html>
<title> - ASSESSING THE SITUATION IN LIBYA</title>
<body><pre>[Senate Hearing 112-362]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-362

                    ASSESSING THE SITUATION IN LIBYA

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/








                  U.S. GOVERNMENT PRINTING OFFICE

73-913 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  staement.......................................................     3
Steinberg, Hon. James B., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................     6
    Prepared statement...........................................     9
    Responses to questions submitted for the record by the 
      following:
        Senator Richard G. Lugar.................................    39
        Senator Mike Lee.........................................    41

                                 (iii)

  

 
                    ASSESSING THE SITUATION IN LIBYA

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:06 p.m., in 
room SD-419, Dirksen Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Shaheen, 
Durbin, Udall, Lugar, Corker, Risch, Rubio, Isakson, and Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Thanks very 
much for coming this afternoon. As everybody knows, we are here 
today to discuss the situation in Libya, and we're very pleased 
to have with us the Deputy Secretary of State, Jim Steinberg. 
All of us became aware this week that Secretary Steinberg is 
going to be departing his current post and leaving government, 
I hope temporarily, to return to academia as the dean of the 
Maxwell School at Syracuse University. I'm not sure they want 
to hear me say ``temporarily,'' but that's certainly the way we 
feel.
    Obviously, we wish you well in that endeavor, and we thank 
you for your tremendous service to the country and to the State 
Department.
    I want to just remind my colleagues on the committee, lest 
any of us accidentally cross over into forbidden territory, 
that yesterday's briefing was classified and, since we're in an 
open session here today, we all need to be careful not to base 
any questions or draw any comments into yesterday's briefing.
    Over the last 9 days, as we all know, the United States has 
joined a robust international coalition and in my judgment and 
the judgment of many has averted a humanitarian catastrophe in 
Libya and sent a strong message to the region, even as we all 
know things are not yet fully resolved.
    Some people, have expressed reservations about this, which 
is the way it works here, and it's a good and healthy thing, 
and we welcome a debate. I certainly do. What I hope we can do 
here this afternoon is contribute to that debate with facts and 
obviously address important questions: Where do we go from 
here? What's the path forward? Who are the Libyan opposition? 
What diplomatic, economic tools are available to us to pressure 
Qadhafi to accomplish the stated goal, not just of the United 
States, but of the international community? And if and when he 
is in a state of departure, what comes next?
    All of these are important questions and we're very eager 
to hear, Secretary, your views on this, how we transition from 
missiles and bombs and overflights to stability and to peace in 
Libya.
    My views, I think, are relatively well known on this. I've 
certainly made them public, and I've laid out what I see as the 
justification for this military intervention. I'm not going to 
go through all the details of that now. But I'd like to just 
emphasize as some ask questions, I believe we do have strategic 
interests at stake in this intervention and in Libya. I am 
convinced, and particularly from a recent visit of 2 days in 
Cairo and time in Israel and discussions in both London and 
Paris with French and British allies, as well as with others, I 
am convinced that we have strategic interests at stake.
    What we do as part of this international coalition will and 
does reverberate throughout North Africa and the Middle East, a 
region where extremists have thrived and attacks against 
Western interests have been incubated. By supporting the Libyan 
opposition--I have met with them personally, incidentally, and 
met with them when I was in Cairo, and I have asked members of 
the opposition to come here and have talked with the White 
House about that, and I hope they will in short order, so that 
colleagues will have a chance to meet with them and size them 
up for themselves, at least their representatives.
    But I think that we at least give them a fighting chance to 
oust a dictator with a long, strong history of terrorism and 
the blood of Americans on his hands. At the same time, we keep 
alive and even encourage the hopes of reformers in the Arab 
world and we counter the violent extremism of al-Qaeda and 
like-minded groups.
    I think we also encourage a new generation of Arabs to 
pursue dignity and democracy and perhaps create the opportunity 
for a new relationship with the people of a greater, new Middle 
East.
    These are worthy goals and if we can accomplish them they 
will significantly alter the options that we face with respect 
to our foreign policy and our military policy. I also think 
that if Qadhafi had been successful in just moving willy-nilly 
into Benghazi and doing what he promised to do, which is show 
no mercy and other things, then I think the suppression of the 
aspirations of the Libyan people would have had reverberations 
beyond, way beyond, Libya itself. I think it would have been a 
setback for the dreams unfolding across that region, and the 
legitimate demands of peaceful protesters I think we all know 
should never be met with bullets. We need to send that message 
loudly and clearly to adversaries and allies alike.
    In any country of decency, unprovoked violence against 
peaceful protesters is unacceptable, whether it's in Syria or 
Bahrain or Yemen or anywhere else. I think that treatment of 
one's own citizens in that way betrays basic notions of human 
rights, and is contrary to the values that we hold so near and 
dear.
    Now, we're all concerned about the violence against 
protesters in Syria. I thought that President Bashar al-Assad 
could have used his speech yesterday to set out a more precise 
course of action with respect to reforms. I gather today 
there's been some further articulation of some measures. But I 
think with large protests scheduled for tomorrow, it is 
essential that his officials, that the officials in Syria, 
refrain from using violence against their own people.
    Some have asked, why Libya and not other humanitarian 
situations? The truth is it's a perfectly appropriate question. 
We're going to weigh our ideals, our interests, and our 
capabilities in each case. The President said this the other 
day. I think a number of us have said it over the course of 
time. None of these countries or situations are the same, and 
in each one of them we need to weigh our ideals, our interests, 
our capabilities, and the possibilities, and then decide where 
and how to become involved.
    In the case of Libya, where the opposition and the Arab 
League called for our help, I think the scales tipped heavily 
in favor of the intervention that we have engaged in.
    So I understand that some of our colleagues have concern. I 
have no doubt that my good friend and the ranking member of the 
committee will articulate some of those shortly. And some have 
concerns about the question of consultation with Congress. That 
is an important constitutional question and I have always as a 
Member of Congress advocated the maximum amount of engagement 
with the Congress and that clearly we're stronger where we can 
act with the support of the American people as expressed 
through the Congress.
    But I do believe that here there was, given a number of 
things, not the least of which was that Congress was out of 
session--but I think that a lot of consultation took place. 
Certainly Senator Lugar and I were part of several phone calls 
with the President from afar, and that consultation has 
continued even through yesterday and the briefing that all 
Senators received.
    Both Presidents, Democratic and Republican alike, have 
authorized limited military action in the last 30 years. I've 
been here for 27 of them and I have seen that in Grenada, in 
Bosnia, in Kosovo, in Panama, Haiti, any number of situations.
    That is not to say that each one has to meet the test of 
the capacity of the Congress to respond and of the nature of 
the event. But Somalia likewise, I guess, is one.
    So the debate is healthy and we are already in fact 
beginning the work of drafting an appropriate resolution. 
Whether we will need it or not I don't know. But we are 
beginning the work of drafting that so that we are ready in the 
event that we need to proceed forward and put this question to 
the Congress.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I thank the chairman very much for 
holding this important hearing and join him in welcoming Deputy 
Secretary Steinberg.
    Over Libya, we have once again witnessed the skill and 
courage of the men and women of our Armed Forces. The 
warfighting prowess of the American military is extraordinary 
in its capability and execution.
    But success in war depends on much more than the abilities 
of our fighting men and women and the quality of their weapons 
and equipment. Any member who has been here to witness the last 
10 years should understand that wars are accompanied by 
mistakes and unintended consequences. War is an inherently 
precarious enterprise that is conducive to accidents and 
failures of leadership.
    In the last decade alone, we have witnessed mission creep, 
intelligence failures, debilitating conflicts between civil and 
military leaders, withdrawal of coalition partners, tribal 
feuding, corruption by allied governments, unintended civilian 
casualties, and many other circumstances that have complicated 
our wars in Iraq and Afghanistan and raised their cost in lives 
and treasure.
    The last 10 years also have illuminated clearly that 
initiating wars and killing the enemy is far easier than 
achieving political stability and reconstructing a country when 
the fighting is over.
    This is why going to war should be based on the United 
States vital interests. It is also why Congress has an 
essential role to play in scrutinizing executive branch 
rationalizations of wars and their ongoing management. This 
holds true no matter who is President or what war is being 
fought.
    Congressional oversight is far from perfect. But it is the 
best tool we have for ensuring executive branch accountability 
in wartime and subjecting administration plans and assumptions 
to rigorous review.
    I offer these thoughts at the beginning of this hearing, 
because I believe Congress has its work cut out for it with 
regard to Libya. On March 7, 12 days before the United States 
began hostilities, I called on the President to seek a 
declaration of war from the Congress if he decided to initiate 
hostilities. He declined to do that. As a result, the United 
States entered the civil war in Libya with little official 
scrutiny or debate. I continue to advocate for a debate and 
vote on President Obama's decision to go to war in Libya. I do 
not believe the President has made a convincing case for 
American military involvement in that country. Declarations of 
war are not anachronistic exercises. They force the President 
to submit his case for war to Congress and the American public. 
They allow for a robust debate to examine that case, and they 
help gauge if there is sufficiently broad political support to 
commit American blood and treasure and to sustain that 
commitment. Furthermore, they define the role and strategy of 
the United States.
    Neither U.N. Security Council resolutions nor 
administration briefings are a substitute for a declaration of 
war or other deliberate authorization of major military 
operations.
    Actions leading up to the wars in Iraq and Afghanistan at 
least acknowledged that congressional authorization was vital 
to initiating and conducting war. Despite deep flaws in the 
process of authorizing those wars, there was a recognition that 
both required a deliberate affirmative vote by Congress. There 
also was broad agreement that both conflicts required extensive 
debate and ongoing hearings in congressional committees.
    President Obama's intervention in Libya represents a 
serious setback to the constitutional limits on the President's 
war powers. Historians will point out that this is not the 
first time that a President has gone to war on his own 
authority. But the Libya case is the one most likely to be 
cited the next time President Obama or a future President 
chooses to take the country to war without congressional 
approval. That future war may have far graver consequences for 
American national security than the war in Libya.
    With or without a debate in the Congress, the United States 
is involved in a military intervention in a third Middle 
Eastern country. This is a jarring prospect, given the enormous 
United States budget deficit, the strains on our military from 
long deployments in Iraq and Afghanistan, and the certainty 
that this won't be the last contingency in the Middle East to 
impact our interests. In fact, even as the coalition drops 
bombs in Libya, the Syrian regime has been shooting citizens in 
an attempt to repress peaceful protests.
    Our commitments in Libya and those of our allies leave less 
military, diplomatic, and economic capacity for responding to 
other contingencies. We need to know, for example, whether the 
Libyan intervention will make it even harder to sustain allied 
commitments to operations in Afghanistan.
    The President clearly was motivated by humanitarian 
concerns about what could happen if Qadhafi's forces were left 
unchecked. But as many have observed, there is no end to the 
global humanitarian emergencies to which U.S. military and 
economic power might be devoted. The question now is, When is 
that humanitarian mission accomplished, and has humanitarianism 
evolved into supporting one side in a lengthy civil war?
    In his March 28 speech, the President expressed hopefulness 
that our intervention in Libya would have a positive effect on 
democratic movements and regime behavior elsewhere in the 
Middle East. Perhaps it will, but the President is guessing. 
Nowhere in the world have we had more experience with 
unintended consequences than in the Middle East.
    A war rationale based on hopes about how U.S. military 
intervention will be perceived in the Middle East is deficient 
on its face. It is also uncertain whether pro-Western 
governments can result from popular upheaval, especially in 
Libya where we know little about the opposition. We also don't 
know what this will mean for our efforts to stop terrorism and 
defeat al-Qaeda, particularly since Middle Eastern governments 
that are helping us with this problem are among those who are 
repressing their people.
    President Obama has not provided estimates for the cost of 
our military intervention. Nor has he discussed whether the 
United States would incur the enormous potential costs of 
reconstruction and rehabilitation of Libya in the aftermath of 
war. By some estimates, American military operations in Libya 
may already have expended close to a billion dollars. The 
President has not set these costs in the context of a national 
debt exceeding $14 trillion, or indicated whether he is seeking 
contributions from the Arab League to offset costs of the war, 
as I have suggested.
    We find ourselves in a situation where Congress is debating 
cuts in domestic programs to make essential progress on the 
deficit, even as President Obama has initiated an expensive, 
open-ended military commitment in a country that his Defense 
Secretary says is not a vital interest.
    The President must establish with much greater clarity what 
would constitute success. He has not stated whether the United 
States would accept a stalemate in the civil war. If we do not 
accept a long-term stalemate, what is our strategy for ending
Qadhafi's rule? Without a defined end game, Congress and the 
American people must assume U.S. participation in the coalition 
may continue indefinitely, with all the costs and risks of 
escalation that come with such a commitment.
    These questions require the type of scrutiny that Foreign 
Relations Committee hearings have provided for the wars in Iraq 
and Afghanistan. I know the chairman intends a new series of 
hearings in the coming weeks on Afghanistan, and I support such 
an inquiry based on principles that I have just cited. I 
believe that the Foreign Relations Committee should also take 
on the burden of detailed oversight of United States 
involvement in Libya, and I thank the chairman again for 
initiating that process today.
    The Chairman. Thank you, Senator Lugar. Indeed, I think 
we'll probably be having another hearing next week with outside 
witnesses. So we would expect to continue the process.
    Mr. Secretary, again thanks for being here. We're happy to 
have you. If you want to place your entire statement in the 
record, it will be placed in as if read in full, and we look 
forward to your comments.

   STATEMENT OF HON. JAMES B. STEINBERG, DEPUTY SECRETARY OF 
           STATE, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Steinberg. Thank you very much, Mr. Chairman, Senator 
Lugar, and members of the committee. If I could just briefly 
begin, a little over 2 years ago you did me the great honor of 
supporting my nomination to serve in this position, and it has 
been a great privilege to serve the country and the President 
and the Secretary and to work with this committee in 
particular, which we see as our home committee. I appreciate 
the courtesy and the engagement that we've had over these 3 
years and I look forward to working with you in my future 
capacity as well. So thank you all very much for that.
    I also want to thank you for holding this hearing and the 
opportunity to update you on developments in Libya, and to 
answer the important questions that both you and Senator Lugar 
and your colleagues have and will raise. I want to also express 
my personal appreciation and all of us for the tremendous 
dedication and commitment of the men and women of the armed 
services who are serving, as they always do, with dedication 
and courage and tremendous skill and proficiency and do great 
credit to our Nation.
    In his speech on Monday night, President Obama laid out our 
goals and our strategy for Libya and the wider Middle East. I'm 
grateful for the opportunity today to continue the ongoing 
exchange between the administration and Congress that has been 
going on as these events unfolded over the last several weeks.
    Let me begin by reviewing why we are a part of this broad 
international effort. As the President said on Monday, the 
United States has played a unique role as an anchor of global 
security and an advocate for human freedom. When our interests 
and our values are at stake, we have a responsibility to act.
    As this committee knows, the crisis began when the Libyan 
people took to the streets in peaceful protest to demand their 
universal human rights and Colonel Qadhafi's security forces 
responded with extreme violence. The U.N. Security Council 
reacted unanimously by approving Resolution 1970 on February 
26, which demanded an end to the violence and referred the 
situation to the International Criminal Court, while imposing a 
travel ban and assets-freeze on Qadhafi's family and government 
officials.
    Rather than respond to the international community's demand 
for an end to the violence, Qadhafi's forces continued their 
brutal assault. With this imminent threat bearing down on them, 
the people of Libya appealed to the world for help. The Gulf 
Cooperation Council and the Arab League called for the 
establishment of a no-fly zone. This body voted itself to 
support the idea of a no-fly zone on March 1.
    Then, acting with partners in NATO, the Arab world, and 
African members of the Security Council, on March 17 we 
succeeded in passing U.N. Security Council Resolution 1973, 
which demanded an immediate cease-fire in Libya, including an 
end to the current attacks against civilians, which it said 
might constitute crimes against humanity, imposed a ban on all 
flights in the country's air space, and authorized the use of 
all necessary measures to protect civilians, as well as 
tightening sanctions on the Qadhafi regime.
    As Qadhafi's troops pushed toward Benghazi, a city of 
nearly 700,000 people, Qadhafi again defined the international 
community, declaring ``We will have no mercy and no pity.'' 
Based on his decades-long history of brutality, we had little 
choice but to take him at his word. Stopping a potential 
humanitarian disaster of massive proportion became a question 
of hours and not days.
    On March 18, the day after the Security Council resolution, 
the President, Secretary Gates, and Secretary Clinton discussed 
and consulted with you, Mr. Chairman, Mr. Lugar, and others, 
the leadership of the Congress, to explain our perspective on 
these issues, and then we acted decisively to prevent a 
potential massacre.
    All of this has been accomplished consistent with President 
Obama's pledge to the American people that the American 
military role would be limited, that we would not put ground 
troops into Libya, that we would focus our unique capabilities 
on the front end of the operation and then transfer 
responsibility to our allies and partners.
    As we meet, the North Atlantic Council, the NAC, with 
coalition partners fully at the table, has taken on full 
responsibility for all of the United Nations' mandated action 
against Libya, including enforcing the no-fly zone, policing an 
arms embargo in the Mediterranean, and carrying out targeted 
air strikes as part of the U.N. mandate to take all necessary 
action to protect civilians.
    As NATO assumes command and control of military operations, 
we are confident the coalition will keep pressure on Qadhafi's 
remaining forces until he fully complies with the terms of 
Resolution 1973.
    We became involved in this effort because America has, as 
the President said on Monday night and you, Mr. Chairman, have 
just reinforced, an important strategic interest in achieving 
this objective. A massacre could drive tens of thousands of 
additional refugees across Libya's borders, putting enormous 
strains on the peaceful, yet fragile, transitions in Egypt and 
Tunisia. It would undercut democratic aspirations across the 
region and embolden repressive leaders to believe that violence 
is the best strategy to cling to power. It would undermine the 
credibility of the United Nations Security Council and its 
ability to uphold global peace and security.
    Now, many have asked--Senator Lugar, you have asked--why 
Libya and not in other cases where we have seen force used 
against civilians? The President explained on Monday night, 
``In this particular country, Libya, at this particular moment, 
we were faced with the prospect of violence on a horrific 
scale. We had a unique ability to stop that violence, an 
international mandate for action, a broad coalition prepared to 
join us, the support of Arab countries, and a plea for help 
from the Libyan people themselves. We also had the ability to 
stop Qadhafi's forces in their tracks without putting American 
troops on the ground.''
    I'd also like to say a word about three nonmilitary tracks 
that are crucial to the President's strategy. First on the 
humanitarian front, we are working with NATO, the EU, the U.N., 
and others, especially Egypt, Tunisia, Turkey, and the Gulf 
States, to ensure that aid gets to the people who need it, 
including the victims of Qadhafi's violence and the refugees.
    The U.S. Government is providing $47 million to meet 
humanitarian needs and support the work of NGOs on the ground. 
The second track is to continue ratcheting up pressure and 
further isolating Colonel Qadhafi and his associates. The 
contact group that met in London on Monday sent a strong 
international message that we must move forward with a 
representative democratic transition, that Qadhafi has lost the 
legitimacy to lead and must go.
    But President Obama has been equally clear that our 
military operation has a narrowly defined mission that does not 
include regime change. If we try to overthrow Qadhafi by force, 
our coalition could splinter. It might require deploying U.S. 
troops on the ground and could significantly increase the 
chances of civilian casualties. As the President has said, 
we've been down this road before and we know the potential for 
unexpected costs and unforeseen dangers.
    The approach we are pursuing in Libya has succeeded before, 
as we saw in the Balkans and Kosovo. Our military intervention 
in Kosovo was also carefully focused on civilian protection and 
not regime change. That military operation ended with Milosevic 
withdrawing his forces from Kosovo. But our effort to support 
democracy and human rights in Serbia did not end there. We kept 
up the political and economic pressure, and 1 year after the 
military operation ended the people of Serbia ousted Milosevic 
and then turned him over to The Hague.
    So we're moving ahead aggressively with nonmilitary 
measures aimed at isolating Qadhafi and those who continue to 
enable him, such as escalating financial pressure through 
vigorous enforcement of international sanctions authorized 
under the two Security Council resolutions.
    In London we saw growing international consensus and 
political and diplomatic pressure to this end. We've seen the 
impact of the strategy just in the last 24 hours with the 
defection of Libyan Foreign Minister, Musa Kusa, and the 
defection of the former Libyan U.N. Ambassador, Ambassador 
Teki.
    That brings me to the third track, supporting the 
legitimate aspirations of the Libyan people. As in Egypt and 
Tunisia, we hope to see a democratic transition in Libya 
through a broadly inclusive process that reflects the will and 
protects the rights of the Libyan people. Now, we know this 
won't be easy, but we appreciate the strong commitment that the 
council has made in its statements, especially in the last 
several days, committing to democratic ideals and its explicit 
rejection of terrorism and extremist organizations, including 
al-Qaeda.
    In London, the international community agreed to establish 
a contact group that will coordinate activity and provide broad 
political guidance on the full range of efforts under 
Resolutions 1970 and 1973. We're pleased that Qatar will host 
the first meeting of this contact group.
    So there is progress to report. But we are under no 
illusions about the dangers and challenges that remain. We know 
that Qadhafi is unlikely to give up power easily and that the 
regime still has substantial military capacity. This is a 
critical moment for Libya, for the international community, and 
the United States. We're eager to continue our close 
consultations with you about the way forward and hope to have 
your support, and I look forward to our dialogue this 
afternoon.
    [The prepared statement of Mr. Steinberg follows:]

    Prepared Statement of Deputy Secretary of State James Steinberg

    Good afternoon. I want to thank Chairman Kerry and Ranking Member 
Lugar for inviting me today. I am grateful for this opportunity to 
update you and answer your questions.
    In his speech on Monday night, President Obama laid out our goals 
and our strategy in Libya and the wider Middle East. On Tuesday, 
Secretary Clinton met with our allies and partners in London, as well 
as with representatives of the Libyan Transitional National Council, 
and yesterday she and Secretary Gates briefed members of both the House 
and Senate. I am pleased to be here to underline their comments and to 
continue the valuable and important exchange between the administration 
and the Congress that has been ongoing since shortly after Colonel 
Qadhafi's regime began to resort to violence against its own people.
    Let me begin by reviewing why we are a part of this broad 
international effort. As the President said, ``the United States has 
played a unique role as an anchor of global security and advocate for 
human freedom. When our interests and values are at stake, we have a 
responsibility to act.''
    This crisis began when the Libyan people took to the streets in 
peaceful protest to demand their universal human rights. Colonel 
Qadhafi's security forces responded with extreme violence. Military 
jets and helicopter gunships attacked people who had no means to defend 
themselves against assaults from the air. There were reports of 
government agents raiding homes and even hospitals to round up or kill 
wounded protestors, of indiscriminate killings, arbitrary arrests, and 
torture as Qadhafi's forces began a full-scale assault on cities that 
were standing up against his dictatorial rule.
    The U.N. Security Council responded by unanimously approving 
Resolution 1970 on February 26, which demands an end to the violence 
and refers the situation
to the International Criminal Court while imposing a travel ban and 
assets freeze on the family of Muammar al-Qadhafi, and certain 
Government officials. Rather
than respond to the international community's demand for an end to the 
violence, Qadhafi's forces continued their brutal assault.
    With this imminent threat bearing down on them, the people of Libya 
appealed to the world for help. The GCC and the Arab League called for 
the establishment of a no-fly zone. Acting with partners in NATO, the 
Arab World, and the African members of the Security Council, we passed 
Resolution 1973 on March 17. It demanded an immediate cease-fire in 
Libya, including an end to the current attacks against civilians, which 
it said might constitute ``crimes against humanity,'' imposed a ban on 
all flights in the country's airspace, authorized the use of all 
necessary measures to protect civilians, and tightened sanctions on the 
Qadhafi regime and entities it owns or controls, including the National 
Oil Corp. and its subsidiaries. As his troops pushed toward Benghazi, a 
city of nearly 700,000 people, Qadhafi again defied the international 
community, declaring, ``We will have no mercy and no pity.'' Based on 
his decades-long history of brutality, we had little choice but to take 
him at his word. Stopping a potential humanitarian disaster of massive 
proportions became a question of hours, not days.
    And so we acted decisively to prevent a potential massacre. We 
established a no-fly zone, stopped Qadhafi's army from their advance on 
Benghazi, expanded the coalition, responded to the humanitarian crisis 
in Libya and in its neighboring countries, and now have transferred 
command of the military effort to NATO.
    All this has been accomplished consistent with President Obama's 
pledge to the American people that our military role would be limited, 
that we would not put ground troops into Libya, that we would focus our 
unique capabilities on the front end of the operation and then transfer 
responsibility to our allies and partners. The President defined the 
military mission succinctly at the outset, ``The international 
community made clear that all attacks against civilians had to stop; 
Qadhafi had to stop his forces from advancing on Benghazi; pull them 
back from Ajdabiya, Misrata, and Zawiya; and establish water, 
electricity, and gas supplies to all areas. Finally, humanitarian 
assistance had to be allowed to reach the people of Libya.''
    As we meet, the North Atlantic Council with coalition partners 
fully at the table, has taken on full responsibility for all United 
Nations-mandated action against Libya, that includes enforcing a no-fly 
zone, policing an arms embargo in the Mediterranean, and carrying out 
targeted airstrikes, as part of the U.N. mandate to ``take all 
necessary action'' to protect civilians.
    As NATO assumes command and control of military operations, we are 
confident this coalition will keep the pressure on Qadhafi's remaining 
forces until he fully complies with the terms of Resolution 1973. The 
United States will continue supporting our allies and partners in this 
effort.
    We became involved in this effort because America has an important 
strategic interest in achieving this objective. A massacre could drive 
tens of thousands of additional refugees across Libya's borders, 
putting enormous strains on the peaceful--yet fragile--transitions in 
Egypt and Tunisia. It would undercut democratic aspirations across the 
region and embolden repressive leaders to believe that violence is the 
best strategy to cling to power. It would undermine the credibility of 
the United Nations Security Council and its ability to uphold global 
peace and security. That is why this administration concluded that 
failure to act in Libya would have carried too great a price for 
America and why we will remain vigilant and focused on the mission at 
hand.
    I would like to focus on three nonmilitary tracks that are crucial 
to the President's strategy: delivering desperately needed humanitarian 
assistance; pressuring and isolating the Qadhafi regime through robust 
sanctions and other measures; and supporting the Libyan people as they 
work to achieve their legitimate democratic aspirations.
    First, on the humanitarian front, we are working with NATO, the EU, 
the U.N., and other international organizations and regional partners--
especially Egypt, Tunisia, Turkey and the Gulf States--to ensure aid 
gets to the people who need it, including victims of Qadhafi's violence 
and the many refugees who have fled from their homes and jobs. The U.S. 
Government is providing $47 million to meet humanitarian needs and 
support the work of NGOs on the ground. We're supporting relief centers 
on the borders, repatriating third country nations back to their homes, 
and providing food, nonfood and medical items to those in need. The 
coalition military campaign is making it possible for more help to get 
through to people in Libya itself. For example, a convoy organized by 
the World Food Programme was able to reach Benghazi this weekend with 
18 tons of supplies, including food and blankets.
    The second track is to continue ratcheting up pressure and further 
isolating Colonel Qadhafi and his associates. The Contact Group sent a 
strong, international message that we must move forward with a 
representative, democratic transition and that Qadhafi has lost the 
legitimacy to lead, and must go.
    But President Obama has been equally firm that our military 
operation has a narrowly defined mission that does not include regime 
change. If we tried to overthrow Qadhafi by force, our coalition could 
splinter. It might require deploying U.S. troops on the ground and 
could significantly increase the chances of civilian casualties. As the 
President said, we have been down this road before and we know the 
potential for unexpected costs and unforeseen dangers.
    The approach we are pursuing has succeeded before, in the Balkans. 
Our military intervention in Kosovo was also carefully focused on 
civilian protection and not regime change. The military operation ended 
with Milosevic withdrawing his forces from Kosovo. But an effort to 
support democracy and human rights in Serbia did not end there. We kept 
up the political and economic pressure and 1 year after the military 
operation ended, the people of Serbia ousted Milosevic and then turned 
him over to The Hague.
    So we are moving ahead aggressively with nonmilitary measures aimed 
at isolating Qadhafi and those who continue to enable him, such as 
escalating financial pressure through the vigorous enforcement of an 
international sanctions regime authorized under Security Council 
Resolutions 1970 and 1973. At the same time, we are continuing to 
implement our own domestic sanctions and are working with our 
international counterparts on sanctions implementation, monitoring, and 
enforcement. In London, we saw growing international consensus and 
political and diplomatic pressure toward this end.
    And that brings me to the third track: supporting the legitimate 
aspirations of the Libyan people. As in Egypt and Tunisia, we hope to 
see a democratic transition in Libya through a broadly inclusive 
process that reflects the will and protects the rights of the Libyan 
people. This won't be easy. Four decades of Qadhafi's rule have left 
Libya fractured and without strong institutions or civil society--
crucial building blocks of successful democracy. The Qadhafi regime has 
exploited assets that rightfully belong the Libyan people, diminishing 
their opportunities for economic opportunity and growth. In London, 
Secretary Clinton met with a senior representative of the Transitional 
National Council to discuss how we can support this process. The 
Secretary also stressed that the United States will join the 
international community in our commitment to the sovereignty, 
territorial integrity, and national unity of Libya. For its part, the 
Council has publicly stated its commitment to democratic ideals and its 
rejection of terrorism and extremist organizations, including al-Qaeda.
    Now we are moving forward on all three of these tracks with a 
growing coalition of allies and partners. In London, the international 
community agreed to establish a Contact Group that will coordinate 
activity and provide broad political guidance on the full range of 
efforts under Resolutions 1970 and 1973. We are pleased that Qatar will 
host the first meeting.
    So there is considerable progress to report. But we are under no 
illusions about the dangers and challenges that remain. Qadhafi is 
unlikely to give up power quickly or easily. The regime still has 
substantial military capacity and continues offensive operations in 
Misrata and elsewhere.
    This is a critical moment--for Libya, the international community, 
and the United States. We are eager to continue our close consultations 
with you about the way forward and hope to have your support. I look 
forward to your questions.

    The Chairman. Thank you very much, Secretary.
    What could you share with the committee about the breadth 
of the knowledge of the opposition at this point in time and 
your sense of their defined platform/direction?
    Mr. Steinberg. Mr. Chairman, we've had increasingly 
intensive conversations with the Transnational National Council 
and other opposition forces both in and outside of Libya over 
the past several weeks. The Secretary has met several times 
with one of the leaders of the Transnational National Council. 
We've had an opportunity to have others, including yourself, 
who have had these dialogues. And we've begun to have dialogues 
with them in Libya as well.
    We're in the process of sending our own special 
representative into Libya to deepen those conversations. I 
think we are growing to know them better. There's obviously a 
diverse group of people there. But what we have seen through 
this dialogue is a strong recognition on their part that 
there's an expectation that to continue to have the support of 
the international community they need to demonstrate their 
openness to a broad democratic process, to inclusiveness, to 
representation, a recognition that the international community 
and especially the United States will be watching to make sure 
that the values that we are seeking to support are really 
carried out by those forces.
    We recognize that part of the reason that we have taken 
this step-by-step approach to engagement and the decision thus 
far not to fully recognize them as the Government of Libya is a 
part of making sure that we have a full appreciation and 
understanding of just what their path is.
    But I do put significance in the statements they've issued. 
We obviously want to make sure that their actions reflect that 
as well.
    The Chairman. What would you say concomitantly about the 
military component and the military leadership at this point?
    Mr. Steinberg. I think it's fair to say, Mr. Chairman, 
although I would obviously, not being a professional in the 
matter, would want to defer to some extent to our military 
colleagues, that this is a group with limited military 
capability. Some of them come from the Libyan military itself, 
but many of them are just courageous individuals who are trying 
to defend something, the values that they hold for themselves 
and their families.
    I think one of the challenges going ahead is to understand 
just how they can become an effective force. I think it's also 
important to state, because I know there's been a lot of focus 
on the council itself, that this intervention is not on behalf 
of the council. This is an intervention on behalf of the Libyan 
people, to stop the massacre and to create the conditions for a 
true democratic transition.
    We see the council as an important expression of that, but 
this is not the United States taking the sides of one group or 
another, but rather supporting this broader goal of the 
democratic aspirations of the people of Libya.
    The Chairman. Well, when you talk about sort of the broad 
aspirations of the Libyan people, is it your conviction at this 
point and do you have evidence that in effect both groups 
represent the broad aspirations of the Libyan people? Both 
groups, the opposition political and the military components.
    Mr. Steinberg. Mr. Chairman, I think it's obviously 
difficult in a situation where there's been the kind of 
repression that Qadhafi has undertaken and the fact that many 
people within the country are under military siege and don't 
have an opportunity to fully participate. But what has 
impressed us is the recognition by the members of the council 
that they do need to reach out, that they should not be kind of 
a self-appointed group that's deciding the future for others, 
but recognize that as they move forward they want to include 
larger voices and broader cross-sections of the Libyan 
population.
    So I think that that's what's significant here, is they're 
doing what they can under the circumstances that they are, but 
the fact that they have recognized the need to broaden their 
base, to try to be more inclusive, to try to find ways to reach 
out to those in the west, for example, who aren't as able to 
participate as those in the east, I think is a positive sign 
that they understand their responsibilities and what it would 
mean to move forward with a really inclusive transition.
    The Chairman. You mentioned the notion of an envoy. What 
would that expectation be and when might that occur?
    Mr. Steinberg. Mr. Chairman, as you can imagine, for 
operational security reasons I don't want to comment on the 
specifics. But that we do anticipate in the very near future 
that a representative from the United States to work with the 
council would be able to be in Libya.
    The Chairman. Now, the President sent a letter to the 
majority leader and to the Speaker of the House on March 21 
notifying them, as appropriately, of the introduction of armed 
forces into Libya on the 19th. Sixty days past March 21 is May 
20. In light of NATO's assumption of the operations in Libya 
and the changed role of the United States, my question is 
whether the administration will expect that by May 20 Armed 
Forces of the United States of America will be engaged in, 
specifically using the words of the War Powers Act, or 
resolution, ``hostilities or situations where imminent 
involvement in hostilities is clearly indicated by the 
circumstances.''
    Mr. Steinberg. Mr. Chairman, as Secretary Gates has said, I 
think it's impossible to forecast anything of this sort with 
certainty. I can only say that, as you know and the committee 
knows, we have already begun the transition. NATO has taken 
over control and the role of U.S. military forces has already 
begun that transition; that the President has said and 
Secretary Gates has said that we envision our role being 
focused on support of the others which will be conducting the 
enforcement of the no-fly zone and the targeted civilian 
strikes, that we are mostly focusing on support and 
intelligence.
    So obviously we'll have to have a continued conversation 
with this committee, not just at the 60-day point, but all 
throughout, as to see how that evolves.
    The Chairman. Well, we anticipate obviously staying in 
close touch with you on this. I asked that question because 
it's relevant, needless to say, to our thinking as well as the 
essential formulation of any kind of resolution. And needless 
to say, I think the next days will tell more about that than 
anything else, most likely.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Secretary Steinberg, there's a published article in the New 
York Times this afternoon, with the headline: ``NATO Warns 
Rebels Against Attacking Libyan Civilians.'' It points out that 
as NATO has taken over control of air strikes in Libya, the 
coalition has told the rebels that the fog of war would not 
shield them from possible bombardment by NATO.
    The point NATO is making is that, although the President 
may have rationalized our involvement in Libya on the basis of 
humanitarian concerns pertaining to civilians in Benghazi, many 
Libyan civilians, even in Benghazi, have been moving out, and, 
depending upon which side they are on, taking up arms, as they 
attempt to involve themselves in at least some military action 
in other cities of Libya.
    In short, NATO is saying this has got to be a fair fight. 
If those armed by the rebels attack civilians, then they're 
subject to NATO bombardment. Now, that's sort of a new twist, 
but it is not totally unexpected.
    It simply makes my point again that we are in a situation 
in which we in the United States have to be very clear, even in 
the context of our role as a NATO coalition partner, precisely 
why we are conducting operations in Libya and furthermore what 
outcome we would see as success. Now, the President has 
indicated Qadhafi must go. Secretary Clinton has discussed 
other countries that might offer him exile.
    But here we have a situation in which there's a civil war 
going on. People are arming each other. And we know that on the 
eastern side of the country, a fair number of persons are now 
armed, and while these are supposedly Libyan civilians, they 
are, in fact, rebels, some of whom were fighting against us 
recently, either in Iraq or Afghanistan. These are people who 
do not wish the United States well.
    Now, at the end of the day it may be the will of the 
President and the Congress that Libya is of sufficient 
importance that we devise a military strategy to obtain the 
ends that we want and achieve victory; and subsequently, try to 
organize the country, find who the opposition people are in a 
disparate number of cities, and bring them into some sort of 
government and attempt at least to fashion, if not nation-
building, a more stable situation there.
    If so, this would be a road we have been traveling in two 
other instances recently. But in the initial planning, I don't 
see this sort of strategy being developed thus far. That being 
said, our goals in Libya remain unclear, which is why continued 
dialogue with the administration, both in the context of this 
hearing and otherwise, is very important.
    We all have a stake in this. It's not my purpose to try to 
make life difficult for you or the President. However, I do 
believe that this committee must raise substantive and 
sometimes difficult questions, even with regard to the nature 
of our alliance with NATO and the passing over of authority.
    Now, at what point do you believe it's possible that the 
administration will come forward with a comprehensive plan of 
what we believe should occur in Libya, one that clearly answers 
questions with regard to our own forces, our allies, our goals, 
a definition of success, potential budgets to pay both for the 
war inself and any efforts following its conclusion, and 
finally, also attempts to gain the support of the American 
people behind this endeavor?
    Without such a plan, I fear this will not be the last 
unusual headline to appear in the New York Times or elsewhere 
which details that hostilities have taken very unusual turns 
and that the United States has not made clear a definition of 
success in Libya. This seems to me to require really intensive 
thought at this particular point.
    Do you have some general agreement with that proposition?
    Mr. Steinberg. Thank you, Senator Lugar. Obviously, we very 
much appreciate your focus on this. You've been a great leader 
and an advocate for a strong role for the United States in the 
world, but a careful role in the world, and we take that very 
seriously.
    I can't comment on this New York Times headline, to be 
honest. I don't recognize that as ringing particularly in terms 
of anything that I've heard before and, with all respect for 
the Times, I don't think I necessarily know what they think 
they're getting at with that. So let me answer your question 
more broadly.
    I think that what is very clear in our engagement with the 
opposition forces is, first, we do expect them to avoid any 
humanitarian disasters on their part, that they have an 
absolute obligation to protect civilians, that they should not 
in any sense endanger civilians. That is something we would 
hold anybody to.
    Senator Lugar. What happens if they don't agree with that? 
This is the point of the story now. NATO is saying we could 
bomb them.
    Mr. Steinberg. But again, Mr. Chairman, I think that one of 
the--what I was going to go on to say was that one of the 
reasons we are engaging with the opposition is because I 
believe the fact that we are involved along with our NATO 
partners actually allows us to shape this. And I think one of 
the deeper interests that we have here--and both of you have 
alluded to this--is how this turns out, because there is a 
conflict going on there. And we want this outcome to be one 
that is looking positively toward the United States, positively 
toward the values that we support, creating more rather than 
less stability in the region.
    And by being engaged, by being supportive of the legitimate 
aspirations of the Libyan people and working to defend them 
against these humanitarian catastrophes, I think the chances, I 
believe the President and the Secretary believe, the chances 
that we will get the kind of outcome that you want to see is 
much greater than if we leave them to their own, because if 
they do this with the rest of the world turning the back on 
them who will come to their support?
    We've seen others who we don't wish well saying, well, they 
want to try to take this over and see this as an avatar of 
their goals, whether it's forces of extremists or other 
countries. So I think there is an opportunity here for us to 
shape this, to engage with the constructive elements that are 
there that want to be associated, that want to embrace the 
values that were in the Transnational National Council's 
statement.
    So I think we can't guarantee anything going forward, but I 
think the best chances of having an outcome, of preventing 
extremism from taking hold in Libya as this moves forward, is 
precisely by having engagement.
    I think, going on to your broader question, part of the 
reason we've done this as an international coalition is that we 
don't have the full burden and responsibility for this. We've 
already turned over and our costs and role on the military side 
has already begun to decline. Similarly in terms of the support 
for the opposition. It's critically important that this is not 
just a made-in-Washington effort, that this is something that 
we're doing with our allies, with the contact group.
    The contact group discussions yesterday--Monday--were not 
just about the military operations. It was how all these 
countries can come together to support that. I think that again 
leads to a much greater chance of an outcome.
    So in terms of the objectives, you've raised all the right 
questions. I think--we hope we've begun to answer those in 
terms of what we're trying to achieve, what the specific role 
of the military forces is, what the other tools are. And 
obviously we look forward to a more extensive conversation with 
you and your colleagues.
    Senator Lugar. Well, we thank you again for your 
distinguished service.
    Mr. Steinberg. Thank you, sir.
    The Chairman. Senator Lugar, we hope you'll feel better. 
You're making us all feel sick.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I admire your stay at the State 
Department. I'm actually going to miss you when you go. 
Syracuse is going to end up being a lot better off as a result.
    Mr. Steinberg. Thank you, sir.
    Senator Menendez. I sponsored the resolution supporting a 
no-fly zone with Senator Kirk. I get it. I understand and fully 
agree with the need to stop a massacre. I acknowledge that we 
could have seen a tremendous outflow of refugees into Egypt 
trying to avoid the impending massacre, and all of the 
challenges that would have presented in the transition there.
    What I don't get, however, is how we reconcile that with 
your statement that we are not seeking regime change, when the 
contact group has sent a strong international message that we 
must move forward with a representative democratic transition 
and that Qadhafi has lost the legitimacy to lead and must go.
    So if Qadhafi has lost his legitimacy and must go, but our 
effort is not regime change, are you suggesting that, in fact, 
we can reconcile those and would accept Qadhafi's continued 
rule as having met our aspirations in this respect?
    Mr. Steinberg. No, sir. As I tried to make clear in my 
opening statement, what I said was that the military operation, 
that is the strikes themselves, are not--the test of their 
success will not be regime change; but as was the case in 
Kosovo and Serbia, that we have other tools available to us as 
we carry forward.
    So after 78 days of bombing in Kosovo, we ended the 
military operation because we had achieved the humanitarian 
objective, but----
    Senator Menendez. Our ultimate goal, not through the 
military exercise, but our ultimate goal is to see Qadhafi 
leave?
    Mr. Steinberg. Correct, absolutely.
    Senator Menendez. Now I understand it, when you phrase it 
that way.
    Now, in respect to the Transitional National Council, many 
voices have been raised in concern with there allegedly being
al-Qaeda and other elements within it. I read in your statement 
that the council has publicly stated its commitment to 
democratic ideals, and its rejection of terrorism and extremist 
organizations, including al-Qaeda.
    What is our depth of certainty as to that view?
    Mr. Steinberg. Senator, I think it's growing as we deepen 
our involvement there. A number of members of the 
administration have spoken to that. I think that the general 
judgment is that we--first of all, this movement was not 
impelled by al-Qaeda in the first place; and that we don't see 
at the moment a significant presence there.
    It's something we obviously have to be alert to. It's 
something that we have to understand better. And we also have 
made very clear that our continued ability to engage with and 
be supportive depends on seeing in deed as well as in word the 
kinds of commitments that they've made there.
    But I think, as I said to Senator Lugar, I think the more 
we're involved the better chance there is that those who might 
try to hijack it, whether it's Iran or al-Qaeda, will be kept 
on the sidelines because the forces that want to be associated 
with democracy and freedom and the kinds of values that we 
share will be seen as having the support of the United States, 
of NATO, and others.
    So I think that the goal here is we have an opportunity for 
movement which was not impelled by these forces to make sure, 
or at least to substantially increase, the chances that it 
doesn't go in that direction.
    Senator Menendez. I would hope that we learn our lessons 
from history. We don't want to end up arming another Taliban. 
So at the end of the day I assume that we are using every 
intelligence tool we have to ascertain the nature of this 
council's membership.
    Mr. Steinberg. I would just say--I won't comment 
specifically on intelligence matters, but that's obviously a 
priority for us.
    Senator Menendez. Now, on a related matter, as you may 
know, I have been pursuing with other colleagues from the 
committee the issue of Libya and Qadhafi's engagement with the 
bombing of Pan Am 103. The former Libyan Justice Minister 
Mustafa Abdel-Jalil has indicated that he has evidence that 
shows that Qadhafi personally ordered the attack on Pan Am 103 
that killed 270 people, including 34 New Jerseyans.
    Qadhafi is also suspected of being behind the 1985 attacks 
by gunmen at the airports in Rome and Geneva that killed 19 
innocent travelers, and wounded approximately 140, including an 
11-year-old American child.
    My question is what steps is the Department taking to 
ensure that we take this moment--I know that there's a bigger 
issue here, but we can do multiple things at once, I would 
hope, as the greatest country on the face of the Earth--to 
collect the evidence about the Pan Am bombing and other 
terrorist acts perpetuated and financed by Qadhafi that the 
former justice minister or other former Libyan officials may 
have? What are we doing specifically?
    My second question relates to the recent defection of the 
Foreign Minister, Musa Kusa. He may very well likely have had a 
hand in the planning of the Pan Am bombing. I am concerned that 
a man who at a minimum may be responsible for countless deaths 
and human rights abuses in Libya saw the writing on the wall 
and found it to be in his best interests to switch sides at a 
propitious time for himself and try to insert himself in a 
powerful role within the Transitional National Council.
    Do we intend to investigate his role in the Pan Am 103 
bombing and, if so, are we ready in both of these cases to, 
one, amass the evidence, and, two, use that evidence?
    Mr. Steinberg. Senator, we are working with the Justice 
Department on the questions about how we can get additional 
information about accountability on this and take advantage of 
all the new information that is emerging out of this. Because 
it's, as you will understand, related to grand jury and other 
investigations, it's difficult for me to be more specific than 
that. But it is----
    Senator Menendez. I don't want you to give me specifics and 
I know all about grand juries. The question is are we making it 
a priority to ensure that we take advantage of this opportunity 
to get information and evidence that could be brought to court, 
whether in the International Criminal Court or even in the 
courts of the United States?
    Mr. Steinberg. Senator, I think, as you know, this is 
something that Secretary Clinton takes very personally, and she 
has been very focused on this issue and we've made clear with 
our colleagues and others in our own engagement that we expect 
and we are focused on that.
    On the issue of Musa Kusa, one of the things I think that's 
important to recognize and was emphasized by the British 
Foreign Secretary in his statement today is that no offers of 
immunity have been given to Musa Kusa and that they do intend 
to make him available to authorities for information. So the 
answer is yes, we are pursuing this. Yes, we think it's 
important. We have a very strong commitment to the Pan Am 103 
families and others to make sure that all the information comes 
out and that it falls to its logical conclusion.
    We also have the very strong mandate of the Security 
Council, which has established a frame of reference for all 
this to the International Court of Justice, as well as our own 
criminal proceedings.
    Senator Menendez. Well, my time has expired. I just want to 
say that I hope that when this chapter has passed I won't have 
someone here from the State Department or the Justice 
Department telling me how we lost the opportunity to document 
whatever evidence could be deduced from these individuals as to 
the involvement of Qadhafi and others in the killing of U.S. 
citizens.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. Thanks for having 
this hearing.
    Mr. Steinberg, thank you for your service. I very much 
appreciate it.
    I know there's been reference made about the congressional 
schedule and all that. I do hope that everyone in the 
administration knows that if we're going to begin a war all of 
us are glad to catch a flight back to Washington and talk about 
it. I hope the congressional schedule won't be used again as a 
discussion point.
    At the same time, I do appreciate the fact that the 
administration tried to build a coalition. I know a lot of 
people have criticized that. I think that was a good move. I 
know it's one of the most narrow coalitions that we've built in 
recent times. But we did build it and I know that we are 
turning over activities.
    I think here's the question that a lot of us have. You 
know, we look at what happened in Afghanistan. We basically had 
a very narrow mission. In the beginning it was in some ways 
about one person. And let's face it. We can talk about narrowed 
mission in Afghanistan all we wish, but by the time it's all 
said and done we will have engaged in one of the most mammoth 
state, nation-building efforts in modern history. I mean, 
that's what we're doing there right now, is we have a huge, 
mammoth state and nation-building effort under way today.
    So we look at--we look at Libya. We began talking about a 
no-fly zone. Within 48 hours, a no-drive zone. Now we're 
reading news reports of CIA being on the ground. I think a lot 
of us have this question. I mean, the old adage that's become a 
cliche: If you break it, you own it. We're talking about not 
taking Qadhafi out militarily, but I think the administration's 
hoping at this point to get lucky and he leaves or maybe 
slightly less lucky and he's assassinated through covert 
operations or some other type of activities, but he's gone.
    The question is, What kind of discussions have we had 
relating to nation-building there? I mean, there are no 
democratic institutions. Where do we go once he leaves? What 
have we talked about with our allies as far as our commitments 
on the ground, and can it become much like what we've seen in 
Afghanistan?
    Mr. Steinberg. Well, thank you, Senator. I think we 
certainly see this as more than a question of just getting 
lucky in terms of his leaving. Part of the reason I come back 
to the analogy of Milosevic and Serbia is because I do think we 
have some experience about some of the tools that can be used 
and, although I don't want to overstate the significance of the 
two defections that we saw today, the fact that the Foreign 
Minister and the former U.N. Ambassador at this stage of events 
have now decided to break from the regime is at least some sign 
that there is internally concerns about what's going on there.
    We intend to continue that pressure, to make clear that 
there are consequences and that people will be held to it. And 
we believe that this is a strategy that can lead to success.
    In terms of the nation-building dimension, I think one of 
the things that the President is very conscious about is the 
limited commitment that we have made and the fact that within 2 
weeks of beginning this military operation we have already 
begun to scale down our engagement I think is a strong 
reflection of his strong conviction about the kind of role the 
United States should play.
    One of the reasons why this meeting in London was so 
important was not simply on the military side to facilitate the 
transition to NATO, but also on the civilian and political 
side, to engage the broader international community, to have a 
contact group which is not chaired by the United States but by 
Europeans and Arabs, who are going to take the principal 
responsibility for carrying that forward.
    I think we do have a role to play. As I said, we've done 
$47 million in humanitarian assistance. There may be other 
kinds of democracy assistance that it would make sense for us 
to continue to play. But I do think this is one in which we 
recognize that the United States can play a supportive role, 
that it's useful for us to be part of this overall effort, but 
we are not taking the kind of responsibility that we have in 
other circumstances.
    Senator Corker. So we've had zero discussions about our 
involvement in building democratic institutions post-Qadhafi, 
whenever that occurs?
    Mr. Steinberg. Again, the conversations began in London in 
terms of the role of this contact group, the role that the EU 
will play, the role that the U.N. will play. The reason for 
creating this contact group is to create a body that isn't 
dependent on the United States to plan this, but rather for 
other partners to take a key role in shaping this so that 
there's an understanding that as they help shape this that they 
have a responsibility for the financial resources behind it.
    Senator Corker. So we started this no-fly zone to make it a 
fair fight, and my understanding is we're pulling out our A-10s 
and our AC-130s now, which basically--again, we started no-fly 
zone, then it became a no-drive zone, and it appears that we 
feel like we've now made it a fair fight. If Qadhafi goes into 
Misurata and starts killing folks--now he's got folks in the 
back of pickup trucks with machine guns, just like the 
opposition does--and we are able to watch this on television, 
what is the--I guess I'm confused as to what our goals are, if 
we see that happening on the ground, which likely--I mean, it 
certainly is a possibility now--what is going to be our 
response?
    Mr. Steinberg. A couple of points, Senator. First, as you 
know, from the perspective of the administration we had 
concerns about only a no-fly zone. So from our perspective we 
never had a no-fly zone that then converted to something else. 
We worked very hard in the Security Council resolution to 
broaden that, because our concern was if we only had a no-fly 
zone that we would encounter precisely the situation that you 
describe, that we would be taking his planes out of the action 
but he would be able to mass armor and commit the kind of 
atrocities that we're afraid of.
    So I think we were very pleased that we were able to 
fashion the Security Council resolution in a way that did have 
that broad authority so we didn't have some of the dangers that 
you first--you identified.
    Second, we don't define the mission as a fair fight. We 
define the mission as preventing these massive humanitarian 
attacks on civilians by Qadhafi, and that is what the focus is. 
And that is something that continues to be within the mandate 
of NATO and that is within both the mission that NATO has 
adopted and the role that the NATO forces that include both 
allies and others, to actually implement. And the NATO 
commanders will have a set of rules of engagement and a concept 
of operations as events unfold, if they see those kinds of 
events unfolding, within the mandate that they----
    Senator Corker. So we have 700,000 folks in Misurata and 
now everybody's kind of fighting the same way, out of the back 
of pickups and Toyotas. So again, I don't see how you do that 
from the air if he goes into Misurata and starts killing folks, 
which it seems to be that's where he's headed right now. How do 
we prevent that with our NATO forces when we do it strictly 
from the air?
    Mr. Steinberg. I think the mission that we agreed to, that 
NATO agreed to, and that was authorized by the Security Council 
resolution is to prevent the kind of massive attacks that we 
were concerned about in Benghazi. We have--as I say, that's the 
military mission. But there's the broader mission. We recognize 
that ultimately the security and safety and the stability of 
Libya does depend on Qadhafi and his team going, and that's why 
we have a broader set of tools.
    But, as Secretary Gates has said several times over the 
last few days, we have more than just the hammer in the tool 
chest. The hammer is one piece of it. It can stop the most 
egregious attacks, like the air campaign by Qadhafi, like 
massed armor. It doesn't stop all of it, but there are other 
tools that we have available and we believe that the combined 
application of all of those tools can be successful in the 
mission.
    Senator Corker. Mr. Chairman, I thank you. I do want to say 
I thought that the briefing we had yesterday--I thought both 
Secretaries handled themselves very professionally, and I 
thought that was an outstanding hearing. And I appreciate the 
way the administration has tried to build a coalition.
    I'm one Senator who has witnessed Afghanistan up close and 
personal several times and have seen huge mission creep and 
evolving reasons for our involvement, and I guess I'm just 
expressing concern about--I don't think anybody has really 
thought through the end game yet. I'm not saying that maybe we 
even can at this point, but it is of great concern watching the 
mission creep that we've had in the past.
    But I thank you.
    The Chairman. Thank you, Senator Corker.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Secretary Steinberg, thank you for your service. I have 
really enjoyed working with you and I know that it will 
continue, and thank you for your public service and wish you 
well.
    Mr. Steinberg. Thank you.
    Senator Cardin. I think Senator Corker expresses the view 
of many of us, as does Senator Menendez. We're all very pleased 
by the way the administration engaged the international 
community. I think we all want to take action against the type 
of brutality that Colonel Qadhafi represents and save innocent 
lives. And the administration was able to work with the 
international community and we think that's the only way this 
could have worked. So I applaud you on that.
    I also am pleased to see that other nations are stepping 
forward to take the major leadership role. I think that's 
extremely important and I agree with what you've done.
    I do think that Senator Corker expresses a view of many of 
us in the Senate and that is whether the mission is clear 
enough that it won't change the role in which the international 
community participates in Libya. As you were saying, talking 
about the rebels, we're getting to learn more about them. A lot 
of us are concerned as to what happens when Colonel Qadhafi 
leaves. Do we have a responsible group of people that are 
prepared to step forward to lead Libya, and what do they look 
like and who are they, what are their backgrounds, and will it 
be some retreads of people who were part of the atrocities in 
Libya? That's some of the issues that I hope we will have more 
confidence as the coalition moves forward.
    Can you share with us some of the requests that you're 
getting from the representatives of the opposition? There's 
been reports that they want military supplies, that they want 
training, they want different things. Can you tell us what some 
of their requests have been?
    Mr. Steinberg. Senator, I think it's fair to say they've 
requested almost anything you could imagine that one might want 
under these circumstances. And we obviously take their requests 
very seriously. What we're trying to do is evaluate them, not 
just ourselves, but with our partners, in terms of what makes 
sense under the current set of circumstances, what they can use 
effectively, how that will affect the overall set of 
circumstances, how we can avoid unintended consequences, 
particularly if it should come to the issue of military 
equipment, and making sure that that doesn't go to purposes 
that we would not be comfortable with.
    I think we recognize in these circumstances that, on the 
one hand, the situation is time-urgent. At the same time, we do 
want to do this deliberately and not do this in ways that would 
lead to unintended consequences. That's part of the reason why 
we have this intensified engagement with the opposition.
    As I said earlier, I think we believe very strongly that we 
have a much better chance of shaping how this group evolves and 
how the future evolves for Libya if we're part of it and that 
they see that a decent amount of support from countries in NATO 
and other countries in the region can lead them to feel that 
they will have support to pursue a moderate course and not 
allow this to be hijacked by extremist groups.
    But we are certainly engaged with them on the humanitarian 
side, on the possibility of nonlethal assistance, and there is 
a discussion as to whether other assistance may make sense.
    Senator Cardin. Well, and I certainly understand those 
types of requests. But as I think you understand, as you're 
explaining, that how the international community responds to 
those requests, particularly with the United States 
participation, could very well affect the perceived mission 
here. So I would encourage you to consult closely with us as 
these issues unfold.
    I want to go to a second subject. We all understand that 
one of the major reasons why international action was needed 
was to prevent the massive migration of people from Libya to 
other countries that could have caused major problems for other 
countries. However, there has been reports by the International 
Organization for Migration that there already has been a 
significant amount of migration from Libya to avoid the 
conflict and avoid the violence.
    Do you have any information or could you provide us any 
information as to the magnitude of individuals who have been 
displaced as a result of the conflict in Libya?
    Mr. Steinberg. I do have that, Senator. If you wouldn't 
mind, I'd prefer to provide it more precisely for the record. 
But I can check my notes here if you'd like me to.
    Senator Cardin. If you provide it for the record, that 
would be fine.

    [Editor's note.--At the time this hearing went to press the 
requested information had not been provided.]

    Senator Cardin. I would also like to know whether there has 
been any discussions in the international coalition as to 
whether there will be assistance provided to other countries in 
regards to migrations from Libya or whether there's other 
efforts being made in order to bring in some of the 
international organizations that deal with refugee issues.
    Mr. Steinberg. As you mentioned, Senator, and you know well 
from your own work, the IOM and others, the U.N. Commission on 
Refugees and others, are deeply involved in this, and we've 
been actively engaged with them. So in addition to our own 
direct assistance, IOM, HCR and others, have been supportive. 
They have additional appeals coming out for their work there. 
So I think there will be a need for support both directly to 
the international organizations and to the affected countries, 
and that's an area that we've been very focused on.
    Senator Cardin. Let me just underscore this. In Iraq those 
issues were not dealt with for the longest period of time and 
still have not been satisfactorily dealt with, causing 
significant burdens in Jordan and Syria and other countries. 
These issues need to be gotten on immediately rather than 
sitting there for months or years causing significant problems 
in stability in the region.
    So I would just urge that you make that the very high 
priority, to engage the international community. We do have 
organizations that are prepared to help, but they need the 
leadership, particularly of the coalition now that's been put 
together.
    Mr. Steinberg. Absolutely. I think your reference to the 
Iraq situation is a very cogent one, because we obviously have 
a long-term problem there that we've been struggling to get and 
to make sure that we do have the resettlement, both internally 
within Iraq and externally.
    Just to give you what I have for right now, approximately 
390,000 refugees have left Libya. That includes both Libyans 
and third country nationals who have left since the conflict 
began.
    Senator Cardin. So there is a significant impact now.
    Mr. Steinberg. Yes; no question about it.
    Senator Cardin. I think we all need to understand that. We 
talk about preventing massive migration, which we have as a 
result of the efforts. But there is still a significant issue 
today as a result of the problems.
    Mr. Steinberg. Absolutely.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Risch.
    Senator Risch. Thank you, Senator Kerry.
    Mr. Steinberg, first of all I want to say that I don't want 
what I'm going to say here to be taken as combative. I really 
really want to support the administration on this. When we're 
talking about these matters, we're all Americans and it's 
important that we pull the wagon together.
    But I have some--I've listened to the President. I've 
listened to Secretary Clinton, Secretary Gates, and yourself 
talk about the goals that I just have real trouble reconciling. 
The goals from a political standpoint is regime change, but not 
a military standpoint. And then the goal of humanitarian 
protection of citizens is the military objective, but not the 
political objective.
    I just have real trouble. I don't know who came up with 
this, but for instance, if you leave Qadhafi in power and you 
don't use your military might as you've already pulled the 
trigger and done, how in the world can you say that you're 
going to stop atrocities or protect the civilian population? If 
he stays in power and this thing collapses, there's going to be 
a humanitarian catastrophe there that is going to be incredibly 
large, it would seem to me.
    I just don't understand how you can justify these. I've 
listened carefully and it's articulated that they're different, 
that these are different goals. But I just can't reconcile it.
    Mr. Steinberg. Senator, I think what we've tried to say is 
that there are many tools that are available to achieve policy 
objectives and that we're trying to adapt the right tools for 
the right job. The reason I've mentioned on several occasions 
the situation in Kosovo is because I think we demonstrated 
there that it was possible to have a limited military 
intervention to stop an imminent and massive humanitarian 
crisis, which we did through the air campaign in Kosovo, which 
caused the end of the ethnic cleansing and the withdrawal of 
Milosevic forces. But the longer campaign to restore democracy 
and to get rid of Milosevic took longer, but did not depend on 
military tools, and we were successful.
    Similarly here, we believe that it is possible to combine 
the different tools with a focus on a limited application of 
force to stop the kind of aggression against civilians that 
Qadhafi was taking with the broader efforts that include 
economic sanctions, political pressure, and other tools that we 
have that will lead to the removal of Qadhafi from power. 
There's not a guarantee that it will work here, but it has 
worked in the past.
    So I think that's how we've tried to explain the two 
together. It's not unprecedented and it has been something 
which has been proved to be successful in other circumstances.
    Senator Risch. Do you really believe that if we withdraw 
our military might, which apparently we're going to today or 
tomorrow, whenever it's going to be, and Qadhafi stays in power 
and the rebels collapse, that there isn't going to be a 
humanitarian slaughter there that's going to be of an epic 
nature?
    Mr. Steinberg. Senator, the coalition isn't withdrawing its 
military power. The United States is moving to a different 
role, but the NATO mission and mandate stands, and that----
    Senator Risch. They tell me the NATO forces don't have what 
we have. They don't have the A-10s, which are absolutely 
critical in this situation, from what I understand. Am I right 
on that?
    Mr. Steinberg. Senator, I used to serve as a staff member 
on the Armed Services Committee, so I could pretend to go back 
to my old expertise. But I'd rather defer to my military 
colleagues in terms of what's needed. But I do think we believe 
that NATO has the capacity to carry out this mission, and that 
was the important consideration. I think SACEUR, Admiral 
Stavridis, was quite insistent on making sure before he took 
that on that he felt that he had the tools available to conduct 
the mission.
    Senator Risch. I hope you're right.
    Let's move to another subject, and that is another issue 
that I have real difficulty with here is who we're helping. 
People have made reference to it here, but, with all due 
respect, I just don't feel we've gotten a decent answer on 
that. I've heard the administration say, well, we're getting to 
know them better. Well, that's not good enough for me.
    If we're going to start killing people on behalf of 
someone, I want to not get to know them better. I want to know 
who they are before the trigger is pulled. That's the 
difficulty I'm having here.
    Now, everybody can agree that Qadhafi is a really, really, 
really, bad guy, and as a result of that I think the temptation 
is to say, well, the people that are trying to get rid of him 
must be OK, or at least OK. I'm not there. I'd like a better 
understanding of who it is that we're helping here.
    I hear about the council. I hear about different--I hear 
the talk of al-Qaeda being involved. But I haven't heard names. 
Who is this? What is the group? I want to look at the track 
record of these people before I decide whether it's a good 
thing to put American lives at risk or, for that matter, 
American treasure at risk. Help me out.
    Mr. Steinberg. Senator, the way we see it is we're not 
intervening on behalf of the Transnational National Council. 
We're intervening to stop a humanitarian massacre against the 
Libyan people. We are working with these individuals who are 
beginning to try to see if they can organize opposition forces, 
to see if we can move them in a direction so that they are 
supportive of the kinds of long-term future that we want for 
Libya.
    There are some who criticize----
    Senator Risch. Who are they? Who are they?
    Mr. Steinberg. If I could just, a little bit more.
    Senator Risch. Please.
    Mr. Steinberg. Some have criticized us for not formally 
recognizing the council. Precisely the reason we haven't is 
because before we want to move to that step we want to make 
sure that they are representative, that they are consistently 
supportive of the values and principles that we believe in. So 
that's why what we are doing is intervening, not on behalf of 
them, but for the Libyan people, and looking to see whether 
this council can become a representative group that can be a 
good partner for the United States in the Libyan people.
    It's a diverse group of people, there's no question about 
it. We have a fair amount of detail. Some of it you'll 
understand we'd probably want to share with you in a closed 
session. But the fact is what we have seen is a group which 
understands the need to reach out to others, which has been 
very explicit in its public pronouncements in support of 
democratic principles and values of tolerance and moderation, 
have been explicit in rejecting the idea of any support from 
al-Qaeda or terrorist organizations.
    Those are positive steps. We need to encourage those 
things. We need to continue to make sure that what they do in 
practice is consistent with those deeds. I think that's the 
best way to engage with them.
    Senator Risch. Is there a putative leader? Is there 
somebody that stands up and says ``follow me'' and people do? 
Is there a name associated with this?
    Mr. Steinberg. Again, Senator, I don't think this is not a 
government. This is a group of people who are coming together 
to try to oppose Qadhafi, just as the democratic forces in 
Egypt came together. It wasn't a single leader. There were a 
number of people.
    This over time we believe can lead to a process that would 
lead to a representative government there. But again, the 
council is an element of the various individuals and forces in 
Libya trying to come together to form a different future for 
the people. We haven't blessed them. We haven't said these are 
the people who are the only people we'll deal with or they are 
the right people to deal with.
    Ultimately they will need to get the validation of their 
own people to confer legitimacy on them.
    Senator Risch. My time is up and I understand that. I guess 
you haven't helped me out as to who these people are. I've 
heard the general description that you've given, but I don't 
know any more than when I sat down here as to who it is that we 
have expended our treasure for to protect. Can you help me any 
more?
    Mr. Steinberg. Senator, as I said, the people we've 
expended our treasure to help are the young men and women, the 
children, the mothers, of Benghazi and elsewhere who are under 
attack. That is the basis of our intervention. It's not an 
intervention on behalf of this group.
    This group may form over time the kernel of a new 
representative democracy there. We obviously want to understand 
who they are and what they're doing. As I said, we could go 
through individuals. Some of it we'd want to do with you in 
closed session. We can talk about individuals, but I don't 
think that really is what the purpose of our intervention is. 
This is not two combatants where we're taking the side of one 
side or the other. We are intervening on behalf of the Libyan 
people, who are under attack by their own government.
    Senator Risch. Put me in the column as agreeing that I also 
want to find out who they are.
    Thank you, Mr. Chairman.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    I appreciate Senator Risch's questions because I'm going to 
also talk along that line in terms of who the rebels are and 
what support they have and that kind of thing. But let me just 
at the outset say that I support the President and the 
international community moving the way it has moved to protect 
the civilian population.
    But I am very worried about this whole idea of mission 
creep and how we move to the next phase. I mean, is the next 
phase arming the rebels? Is the next phase doing additional 
things that take a side in the conflict? So I'll have a 
question there.
    But first of all, just to the arming the rebels. What is 
the United States doing to determine the level of al-Qaeda 
influence among the rebel groups and what do we know with 
respect to that?
    Mr. Steinberg. Senator, we've made that a priority in our 
engagement with them. We obviously used our own information and 
sources to try to make our own judgments about that. As Admiral 
Stavridis and others have said, we don't see significant al-
Qaeda presence. There obviously was some elements of al-Qaeda 
in the past and we have to be attentive to make sure that they 
don't come back.
    We have made it very clear to the individuals that we've 
been dealing with there that we expect them to be categorical 
in rejecting support from or engagement with or advocacy on 
behalf of terrorism, violence, or any of the extremist views 
that al-Qaeda takes. I put significance on the fact that the 
Transnational National Council yesterday came out with a 
categorical statement rejecting any affiliation or involvement 
with al-Qaeda or extremist organizations.
    Now, we obviously have to make sure that's carried out in 
deed as well as word. But they get the message from us about 
the importance of that and, as I've said before, I think the 
more we engage and are seen to support their legitimate 
aspirations and to work with the progressive and tolerant 
democratic forces, the better chance that what emerges in the 
post-Qadhafi era will embody those things.
    So we're very attentive to that concern. I think that we 
see a real possibility of it moving in the direction that we 
want, and we've certainly made clear to those individuals that 
we're interacting with in Libya that we will have zero 
tolerance for the presence of al-Qaeda there.
    Senator Udall. Before we took the international step to 
create a no-fly zone, was there a significant al-Qaeda presence 
in Libya?
    Mr. Steinberg. No, sir.
    Senator Udall. No; OK.
    Who is the leader or leaders of the rebel groups, and do 
they assert any effective amount of control over their 
fighters?
    Mr. Steinberg. I think it's a very diverse group. They have 
people from different walks of life. There are professionals, 
there are academics, there are people who have been involved in 
politics, there are people who had some involvement in the 
previous regime. There are former military officials.
    It's a very diverse group. There are some young people. 
There are some more senior people. This is a group that has, as 
we've heard from our discussions today, come together to try to 
bring as much of a broad-based coordination of the opposition 
to Qadhafi. But it's a work in progress and it's not a kind of 
structured organization, it's not a government. I think that 
they are themselves struggling to have both a sense of 
political coherence and also military effectiveness.
    One of the reasons that we do engage with them is to try to 
understand better what their strategy is and hopefully to make 
it possible for them to evolve in a way so that they can be 
both more effective and also have a more coherent political 
strategy going forward.
    We've been encouraged by what we heard, particularly with 
the Secretary's interactions with Mr. Jabril, both in Paris 2 
weeks ago and in London this past week, that they are beginning 
to understand the need to organize themselves, to develop a 
coherent platform going forward. What we've seen in the 
statements that they issued both on Monday and Tuesday is some 
evidence that they're beginning to be responsive in that 
respect. Again, it's a work in progress.
    Senator Udall. I'd like to get you to focus on the U.N. 
Resolution 1973 and the issue of shipping weapons to rebels. 
There have been reports that Egypt is shipping weapons to the 
Libyan rebels. Is this true and is the United States supporting 
the Egyptians' movement of weapons in any way, including with 
the use of taxpayer funds?
    Mr. Steinberg. First, certainly not with taxpayer funds. 
Second, there are a variety of reports out there, but to the 
best of my knowledge we don't have any confirmed reports of 
others providing lethal military assistance.
    With respect to Resolution 1973, I think our position is 
very clear, which is that the provisions that authorize the use 
of all necessary means to civilians makes it possible--that is, 
it's permissible under the resolution--to do it. But our 
administration has made no decision to do that.
    Senator Udall. Now, you're making the argument it's 
permissible. The equally strong argument could be made that 
it's not authorized in the resolution and so you cannot do so, 
can it not? I mean, it's absolutely silent. I don't see--can 
you point me to any language----
    Mr. Steinberg. Yes; paragraph 4, which says----
    Senator Udall. Do you have it in front of you, that you 
could point me to the language where it says that any of the 
coalition forces can specifically give arms to the rebels?
    Mr. Steinberg. What it says is ``Notwithstanding any 
provisions of previous resolutions, that members are authorized 
to use all necessary means to achieve the objective.'' ``All 
necessary means''----
    Senator Udall. There's no specific authorization to give 
support----
    Mr. Steinberg. But ``all necessary means'' means all 
necessary means. So it is our clear reading that ``all 
necessary means'' means that it is not precluded. The transfer 
of arms is allowed in international law except where it's 
prohibited, and this clearly makes clear that it's not 
prohibited.
    Senator Udall. I see I'm getting close to the end of my 
time here, so let me just ask one final question here. How many 
of these rebels are professionals in other fields? You've given 
some description. How many have died in the fighting? And how 
many are there actually there fighting in Libya?
    Mr. Steinberg. At that level of precision, Senator, I'd 
have to ask our colleagues in the intelligence community to 
give you the briefing on that. I can't give you specific 
numbers.
    Senator Udall. And you don't have any idea on the numbers 
in terms of professionals in the field that are----
    Mr. Steinberg. I think the numbers are small, but to be 
more--to give you an actual number, I'd have to defer to those 
who are doing the bean-counting for us in the intelligence 
community.
    Senator Udall. Thank you very much, and thank you for your 
service. I appreciate it.
    Mr. Steinberg. Thank you.
    The Chairman. Thank you, Senator Udall.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you, Secretary. I want to focus the questioning today 
not on tactics, because this is not a military hearing. I want 
to just kind of go through some of the goals. I think there 
will be a debate about tactics and it probably is ongoing.
    So let me begin by kind of stating the obvious, based on 
your testimony. But our primary objective in this endeavor was 
to prevent an imminent massacre, particularly in Benghazi, 
correct?
    Mr. Steinberg. Correct.
    Senator Rubio. Had we not acted, would there have been a 
massacre there?
    Mr. Steinberg. I think, obviously, nothing is certain in 
life. But Qadhafi had said that was his intention, was to show 
no pity to his people.
    Senator Rubio. And going forward, I think our goal remains 
to prevent genocide or massacres to occur in Libya, correct?
    Mr. Steinberg. Correct.
    Senator Rubio. If Qadhafi survives and holds on, what are 
the chances that we should take him at his own word that he'll 
actually have no mercy and no pity, I think was the quote, 
based on his history?
    Mr. Steinberg. Again, Senator, that's why we have made 
clear that our political objective here is to make sure that 
Qadhafi goes.
    Senator Rubio. So would you agree with the statement that 
as long as Qadhafi is in control genocide and massacres is not 
just a possibility, it's a real probability, at least against 
his enemies?
    Mr. Steinberg. I would certainly say it's a very 
substantial risk; yes.
    Senator Rubio. And that's how you reach the conclusion that 
the ultimate goal--we can debate tactics, but the ultimate goal 
is for Qadhafi to be gone from Libya?
    Mr. Steinberg. Yes.
    Senator Rubio. OK. Now, talk about Qadhafi for a moment. 
Some of us, it's important to have this refresher history on 
him. He has a long history of sponsoring terrorism, right, in a 
pretty brazen way?
    Mr. Steinberg. No question about it.
    Senator Rubio. In fact, he is--there's reports he's been 
implicated in things like assassination attempts against and 
plots against other heads of state?
    Mr. Steinberg. Again, without commenting on some of the 
specifics, he has certainly been implicated in----
    Senator Rubio. In a lot of things?
    Mr. Steinberg. In a lot of activities.
    Senator Rubio. Was he also--has it also been reported that 
he had a weapons program, a nuclear weapons program, that he 
was in the verge of acquiring at some stage, less than a decade 
ago?
    Mr. Steinberg. There's again no question that he had an 
active nuclear weapons program. I think one of the great 
successes of the past decade was the ending of that program. 
But he was certainly pursuing a nuclear weapons program.
    Senator Rubio. Then as far as this operation is concerned, 
we, the United States forces in conjunction with an 
international coalition, has attacked this guy that we've just 
described, correct? And so he survives, we should expect--if he 
survives this international action against him, we should 
expect him to feel emboldened by the fact that he was able to 
survive it.
    Mr. Steinberg. Well, we haven't--I mean, the mission has 
not been to attack him. The mission has been to----
    Senator Rubio. His forces.
    Mr. Steinberg [continuing]. To attack those forces which 
were threatening----
    Senator Rubio. But I'm sure he's taking it personally.
    Mr. Steinberg. I don't suspect he thought it was a friendly 
act.
    Senator Rubio. And if he survives, not only will he be 
emboldened, but is it fair to say he's probably going to be a 
little bit upset? Angry maybe?
    Mr. Steinberg. I think it's hard to know whether he'd be 
emboldened or not. I think on the one hand he knows that we 
have taken action against him. But I think whether he's 
emboldened or not, that's part of the reason--we think the 
threat is sufficient that we believe it would be important that 
he go.
    Senator Rubio. The bottom line is that at the end of all 
this engagement, if he survives we are going to have on our 
hands a potentially emboldened, definitely angry dictator with 
a history of sponsoring terrorism and pursuing nuclear weapons 
on our hands, correct?
    Mr. Steinberg. Well, I wouldn't--on the nuclear weapons 
thing, I would not--I couldn't make that judgment as to whether 
he would feel that he was free to do that again. But I do think 
that we have said that we think that we cannot envision a long-
term stable solution for Libya that involves----
    Senator Rubio. I guess that's where I'm trying to arrive at 
with the question. If he's able to survive and hold onto power, 
what we're going to have--what the world's going to have on 
their hands here is a pretty angry, I believe emboldened, guy 
with a pretty bad track record; and therefore that's why it's 
important that he not hold on and survive.
    Mr. Steinberg. We share that view, Senator.
    Senator Rubio. My last question has to do with this debate 
about congressional authority and my recollection that the 
Senate--and you may want to comment or maybe you know this or 
don't, and I should. I believe the Senate passed a resolution 
regarding a no-fly zone on March 1. The Department obviously 
was aware of that and took that into consideration.
    Mr. Steinberg. Yes.
    Senator Rubio. When the decision was made to join this 
international coalition, how far were we from this massacre, 
potential massacre, likely massacre in Benghazi? Hours, I would 
imagine, not----
    Mr. Steinberg. Hours. I think the judgment we had was 
hours, not days.
    Senator Rubio. So suffice it to say that some folks 
probably came to the conclusion that, given the--we're not 
exactly--I've only been here a few months, but they don't 
exactly set speed records here in Congress for dealing with 
things. I would imagine that went into the consideration when 
the decision was made to act.
    Mr. Steinberg. I think, Senator, as you know, the President 
brought in the leadership of both bodies. He spoke with the 
chairman and the ranking member here and others of the key 
committees, because he recognized that time was of the essence 
and he was going to need to act quickly, but he did want to 
reach out to the membership.
    Senator Rubio. The bottom line is that if you had pursued 
some sort of congressional authorization for the specific move 
that you made, you wouldn't have had time to act to prevent--or 
to be a part of this prevention of what happened, what could 
have happened in Benghazi.
    Mr. Steinberg. I certainly think that the exigency of time 
was an important factor, correct.
    Senator Rubio. My last question. I think I'm asking it just 
to echo what Secretary Clinton's already said. I know the 
position is that you didn't require congressional 
authorization, but that you would welcome congressional 
authorization.
    Mr. Steinberg. Yes.
    Senator Rubio. Is that still--I would imagine that's 
still----
    Mr. Steinberg. Yes, sir, absolutely.
    Senator Rubio. Thank you.
    Mr. Steinberg. Thank you.
    The Chairman. Thanks, Senator Rubio.
    I might just mention to you, Senator, that I think that you 
used words like ``survive'' and ``in control,'' and I think 
there's a lot of distance here in between the way this can play 
out, where there are a lot of options available that don't have 
him necessarily in control at all and maybe even, like 
Milosevic, it takes a little bit of time, but eventually he's 
going to move. I think we need to sort of be thoughtful about 
what those parameters are.
    Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    Mr. Steinberg, thank you. I'm sorry that I was tied up in 
another meeting before I could get here.
    Can you clarify? I know it's been raised by the chairman 
and others. I want to understand exactly what the 
administration's position is under the War Powers Act at this 
moment?
    Mr. Steinberg. Our position, Senator, is that the President 
under these circumstances notified Congress consistent with the 
War Powers Act and notification was given within 48 hours of 
the beginning of hostilities. So the President under the 
circumstances initiated a limited military action, but that he 
did notify Congress consistent with the provisions of the act.
    Senator Durbin. Under what aspect of the War Powers Act do 
you believe it was a military action that was permissible?
    Mr. Steinberg. Senator, as I say, he acted consistent with 
the War Powers Act, but the President also has constitutional 
authority as Commander in Chief to engage in action, 
particularly where it's limited in duration, scope, and when 
the circumstances are exigent.
    Senator Durbin. In the circumstances, of course, to protect 
the United States or the people of the United States. Is there 
another aspect of this that you would add to the list?
    Mr. Steinberg. I think in the case where the President 
decides it is in the interest of the United States in his 
capacity as Commander in Chief, that he has the authority where 
the action he contemplates is limited in scope and duration to 
take those measures he feels is necessary.
    Senator Durbin. And at this point do you believe that the 
burden has shifted to Congress to move forward if they wish to 
either consider a resolution of approval or disapproval?
    Mr. Steinberg. I'm not sure I'd put it in terms of shifting 
burdens, but obviously we would welcome action by Congress to 
support the actions of the President.
    Senator Durbin. Well, many of us have been engaged in this 
debate many times.
    Mr. Steinberg. Yes, sir.
    Senator Durbin. And I can't think of a more awesome 
responsibility that a Member of Congress faces than to consider 
the authorization of this type of military action, knowing 
that, even under the best of circumstances, that Americans are 
risking their lives, if not losing them in the process. So we 
take it very seriously.
    But statements have been made by the administration that 
suggest that this may be of short duration and that even before 
Congress could consider, debate, and vote on a matter, that 
this might be over. What is your estimate?
    Mr. Steinberg. Senator, I think it would be imprudent to 
try to predict exactly how long this will take. I do think it's 
very clear that the President is committed to transfer the 
primary responsibility for this military action to our allies, 
both within NATO and elsewhere. We've already begun that 
transition. NATO has taken control; and that we do see 
ourselves in a support capacity.
    I think that that's evidence of his strong intention as to 
how he sees our role going forward. I think, as you know well 
and as you say, it's been a long discussion, that Presidents of 
both parties under exigent circumstances where the intervention 
and the activity was limited have used that authority. But we 
very much want to stay in consult with you. As you know, the 
President reached out to the leadership on March 18 before we 
felt the need to act, to make sure that there was consultation 
with Congress, and we look forward to continuing that.
    Senator Durbin. And who's going to pay for it?
    Mr. Steinberg. Again, I think that this is a conversation 
that we are actively engaged with. Secretary Gates testified 
this morning about the military dimensions. On the civilian 
side, up until now we've provided about $47 million in 
humanitarian assistance. One of the focuses of our efforts and 
Secretary Clinton's efforts in London was to strengthen the 
international coalition supporting not just the military 
operations, but the civilian operations as well.
    Senator Durbin. That seems to bear some parallel with the 
situation in Kuwait under President George Herbert Walker Bush.
    Mr. Steinberg. Again, Senator, we would welcome as broad a 
support for not just the military actions, but support on the 
financial side as well.
    Senator Durbin. Can you comment on some of the reports in 
the press, specifically the Los Angeles Times, about the 
tactics of the rebels, particularly in rounding up and 
imprisoning certain individuals?
    Mr. Steinberg. Senator, I've read newspaper reports. I 
personally am unaware of reports to that degree. But what we 
have said and we've made very clear is that, to the opposition 
forces, to the Transnational Council, that we hold them to a 
very high standard in terms of their own commitments to basic 
human rights and to terrorism of civilians.
    The fact that we have intervened on behalf of civilians to 
prevent atrocities puts a special responsibility on those who 
are opposing the regime to meet the highest standards.
    Senator Durbin. Have we stopped the export of oil from 
Libya to other nations?
    Mr. Steinberg. Stopped the export? I'm not sure I can 
answer that question, other than to say that if there is any 
ongoing export the funds would be going to blocked accounts.
    Senator Durbin. But you don't know if the oil is still 
moving?
    Mr. Steinberg. I would guess that it is. I don't know if my 
colleagues have an answer to that. I'd have to get that for the 
record. But what I do know is that the regime is not in a 
position to benefit from the sale of oil.
    [The answer supplied for the record to the requested 
information follows:]

    We are not aware of any shipments of hydrocarbons from the 
territory controlled by the regime since the beginning of Operation 
Odyssey Dawn. There has been one shipment of crude oil from TNC 
controlled Tubruq.

    Senator Durbin. Of the funds that we have secured in the 
United States, over $30 billion, from the Qadhafi government 
and regime--is that correct?
    Mr. Steinberg. We have blocked over $30 billion. Some of it 
is not resident in the United States, but because of the way 
the banking system operates we are able to block those funds 
even though they are not physically located here.
    Senator Durbin. So is it fair to say we have control of 
those funds----
    Mr. Steinberg. Not fully.
    Senator Durbin [continuing]. Or we've blocked their 
transfer?
    Mr. Steinberg. We've blocked their transfer, but we do not 
have full control. Over some of them we do, but not all of 
them.
    Senator Durbin. So if you look back at previous conflicts 
in similar circumstances, what ends up happening to funds like 
that?
    Mr. Steinberg. It's different in different circumstances. 
But typically they are either part of an adjudication over 
claims or there are other forms of settlement on the blocked 
funds.
    Senator Durbin. Have any statements been made by our 
government as to where those funds might go in the future?
    Mr. Steinberg. What we have said is that, pursuant to the 
Security Council resolution, those funds are held in trust for 
a future democratic government of Libya.
    Senator Durbin. I see.
    I think that's all I have. Thank you very much, Mr. 
Chairman.
    The Chairman. If Senator Isakson would permit me, is there 
any reason that Colonel Qadhafi can't pay for this himself 
through those funds?
    Mr. Steinberg. Pay for?
    The Chairman. Pay for the costs of this military effort.
    Mr. Steinberg. I'm trying to think whether--I'm not sure 
that we would at this point sort of recognize his control over 
those. Part of the reason for blocking them----
    The Chairman. Right. We've taken control of them. Wouldn't 
we have a legal basis on which to lay a claim for the payment 
for damages for the cost of his actions?
    Mr. Steinberg. Senator, I think that we're exploring a 
variety of options in terms of what might be available, and I'd 
be reluctant at this point to, before we've had a chance to 
explore all the options--one of the things that we want to make 
sure is that we do this in a way that's coordinated with 
allies, because a lot of other people have substantially 
blocked funds and we'd want to make sure that whatever we did 
would not trigger actions by others that we were not fully 
comfortable with.
    So I think it's important to have a consultation with 
others, but we recognize there's a lot of interests in this and 
I think it's a dialogue that we would welcome to continue with 
you and your colleagues as to how to handle this.
    The Chairman. Well, I think we'd like to very squarely put 
it on the table that we ought to be looking at that hard. I 
would think our NATO friends and others would be equally 
interested in it.
    Mr. Steinberg. Again, Senator, I think it's squarely on the 
table and it's a conversation that we're prepared to engage in 
a discussion with you and your colleagues about.
    The Chairman. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Following up on that comment, I would presume our ability 
to block those funds is through an international banking 
agreement; is that correct?
    Mr. Steinberg. And through international banking structures 
and processes.
    Senator Isakson. I think Senator Kerry and Senator Durbin 
raised an excellent point, and I think one of the things we 
ought to be doing is looking at what that authority is and 
creating the opportunity for those funds to be used to 
reimburse the liberation of an oppressed people, if the funds 
are in fact those of Mr. Qadhafi or whoever might succeed him.
    A RICO statute, I guess, for bad guys, is what we need. 
That would be a good thing.
    But is there any precedent for that money being used to 
reimburse a country for its effort in liberating a nation?
    Mr. Steinberg. I'm not an expert in this, Senator. The only 
one that I'm aware of is that in the case of Iraq some of those 
funds were made available, and that's the only one that I'm 
aware of.
    Senator Isakson. And then, following up on Senator Durbin's 
question, it is true the Kuwaitis paid for a substantial amount 
of the cost of the liberation of Kuwait; is that not true? They 
did so voluntarily.
    Mr. Steinberg. In many other cases, we have had support of 
others who have helped defray the costs of the operations, yes.
    Senator Isakson. I'm sorry I was late, and this may have 
been asked, and I apologize, but I was told earlier today that 
we have withdrawn our 130s and our A-10s from the conflict. Is 
that correct?
    Mr. Steinberg. Senator, I'm always very cautious about 
commenting on specific military operations. I do know we have 
begun the process of transitioning to a support role, and we 
certainly do not contemplate going forward that we will be 
conducting enforcement of the no-fly zone or the targeted 
strikes on the ground.
    But whether that process--where we are in that process and 
precisely what assets are involved there I'd rather defer to 
the Secretary and the chairman.
    Senator Isakson. Well, I think it is true that yesterday or 
in the last 36 to 48 hours, we have been significantly 
curtailed from our ability to operate because of sandstorms and 
weather. Is that not true?
    Mr. Steinberg. I checked this morning before I came over 
and I was told that the coalition, in any event--I don't know 
whether that's the United States or just the coalition--has 
been conducting strikes on the ground.
    Senator Isakson. Well, my concern is this: we are where we 
are. What we do now and in the future in the Libyan conflict is 
going to send a lot of signals to that part of the world. If, 
in fact, our actions protract the ultimate resolution of the 
problem by our disengagement or taking our more significant 
assets out of play, we run the risk of having a protracted stay 
by Qadhafi in a position he ultimately must go from, because we 
weren't ever willing to fully commit or to say that regime 
change was the ultimate goal. I think, in fact, if you read the 
Arab Union piece, the U.N. piece, and the speeches that leaders 
have made, everybody realizes Qadhafi's got to go; everybody 
has expressed this verbally. But then we say we're not for 
regime change, and if we're dissolving some of our emphasis in 
that country we're running the risk of protracting what's a 
terrible human situation in Libya.
    I'm not asking you to ratify my opinion, but I'm just 
telling you that's what I see. I think Secretary Clinton has 
done an admirable job over the last month and the State 
Department should be commended on what it's done to get the 
U.N. resolution and get the players together and get the 
commitment. But now that we're all of a sudden there and we're 
at a point where it's going to go one way or another--and it 
could be bad--we ought to do everything we can to see to it 
that that does not happen.
    Mr. Steinberg. Senator, the one thing I would say, again 
without getting outside my lane, is that in the process of 
transferring the command to NATO, NATO developed the concept of 
operations, the military plans, based on the judgment of 
SACEUR, Admiral Stavridis and others, that they had the 
capacity to carry out the mission.
    So it was certainly a factor in their own thinking about 
what kind of assets they needed, taking into account what 
countries were prepared to make available.
    Senator Isakson. Well, I'm going to make a statement that 
you don't have to respond to, and Chairman Kerry or Senator 
Lugar can correct me, because my memory gets bad sometimes. But 
in the 1970s when the Shah of Iran was ousted and he was our 
``friend'' and we brought him to the United States for medical 
care, we didn't really engage with those that were trying to 
throw him out, and because of that, a vacuum was created, and 
the ayatollahs came into power, and we are to this day still 
dealing with that.
    We have the potential of uprisings in other Middle Eastern 
countries where people are seeking what appears to be democracy 
or their form of democracy and freedom. What we do or don't do 
in Libya's going to send a signal to the rest of that part of 
the world as to how much support there will be for 
democratization, freedom, and liberation from despots.
    So, I remember the hostages in the American Embassy in 
Tehran. I remember the embarrassment we went through as a 
country, and I remember the difficulties of that day. And I 
would hope--my opinion is--our actions now should be actions 
that would send the signal: we're not going to withdraw or back 
away from support for people that are seeking freedom, liberty, 
and justice.
    You don't have to comment on that. That's just----
    Mr. Steinberg. I'll actually, if I could, Senator, I would 
say, since part of my early service in government was working 
on exactly that problem in the Carter administration and the 
problem of Iran, I think, without commenting specifically on 
what transpired during the revolution there, I think your 
broader point is one that we share, which is that there is an 
opportunity here--and I know there has been a lot of discussion 
this afternoon about who the Transnational Council is and who 
these people are. But we feel very strongly that by engaging 
and working and trying to support the progressive, the freedom 
and democracy-supporting elements of Libyan society, that we 
have a chance to shape that, which will not only have a 
positive impact on Libya, but beyond, and will have an impact 
on the transitions in Tunisia and Egypt.
    So I do think that we do see the reason for being involved 
here, not just on the military side, but on the political side, 
and engagement with the opposition forces is a chance to be on 
the right side of history here and to help shape it in a 
direction that's in the interest of both the people of Libya 
and the United States.
    Senator Isakson. Well, on a closing note, let me just 
congratulate you on your service to the country and the State 
Department and wish you the very best in your new adventure.
    Mr. Steinberg. Thank you very much, Senator.
    The Chairman. Thank you, Senator Isakson.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Let me also apologize for missing most of the hearing this 
afternoon. I was actually downstairs listening to Secretary 
Gates and Admiral Mullen.
    Mr. Steinberg. I'll be interested if you could tell me what 
they had to say.
    Senator Shaheen. Well, I was going to actually start with 
one question, because one of the things that I asked is whether 
we have military commitments from any other Arab countries 
besides the UAE and Qatar to participate in the mission? And 
Secretary Gates indicated that we don't at this time.
    As I was watching the lead up to passing the resolution in 
the U.N. and the actual decision by the allies to put in place 
the
 no-fly zone, I think one of the really important steps along 
that way was having the Arab League pass their resolution 
asking for a no-fly zone.
    So I guess my question is, having heard Secretary Gates' 
answer, are there diplomatic discussions under way with any 
other Arab countries about participation in this effort and do 
we expect to see additional support from them as this goes 
forward?
    Mr. Steinberg. Senator, I think we are having conversations 
with a number of countries and we're certainly urging the 
broadest possible Arab participation in this. There are a 
variety of ways that they can participate. Obviously, one 
important way is actually in military operations and in air 
operations. But some countries have already provided overflight 
and other kinds of support. What we made clear is that we 
expect that all the countries in the Arab League, having taken 
that stand, provide some form of support, whether it's 
financial or in kind or military, and those conversations very 
much continue.
    Senator Shaheen. Have we gotten commitments from any 
countries other than Qatar and the UAE?
    Mr. Steinberg. Senator, as you understand, for the reasons 
that Secretary Gates probably didn't say specifically in his 
testimony, we're obviously in conversation and it's probably in 
terms of getting a positive outcome that we do this in 
confidence now. But we could perhaps say more in closed 
session.
    Senator Shaheen. Are we also talking to the African Union 
and what role have they played?
    Mr. Steinberg. I think the positive side of the African 
Union is that they have made very clear the necessity of 
support for a democratic transition. The various statements of 
the African Union, including at their special summit last 
Friday, they gave a very strong statement, which was not as 
explicit as the contact group in saying Qadhafi must go, but 
the clear message was that a democratic, inclusive transition 
had to take place. That I think was a very important message.
    There's no question that it's a complicated picture in the 
African Union. Many countries have received financial support 
from Qadhafi. There are mixed views there. We've had some very 
powerful statements, most impressively from Paul Kagame of 
Rwanda, whom many of you have read his op-ed here, which is 
very poignant given his own country's history, but also from 
President Khama in Botswana and others who understand the 
importance of responding here.
    Other African countries have a more complicated 
relationship. I think that we're not likely to see them having 
a military role, but we do want to see them make clear that 
they are not going to be tolerant of continued repression by 
Qadhafi, and we continue to work very closely with the AU on 
that.
    Senator Shaheen. I happened to be in London last week with 
some other Senators and we had the opportunity to meet with 
Foreign Secretary Hague, and one of the things that he was 
quite hopeful about was the meeting that happened in London 
this week. I wonder if you could talk about whether you feel 
like that meeting was successful, what the goals of that 
meeting were, and what we hope will happen now as the result of 
that meeting?
    Mr. Steinberg. I think there were two broad important 
outcomes of the meeting, because there were two separate groups 
that met. They were overlapping groups, obviously, but one was 
the group of the troop-contributing or force--I shouldn't say 
``troop,'' but force-contributing nations, which helped pave 
the way for this transition that's now taken place to NATO 
control, but also to make sure that others who, although not 
formally part of the North Atlantic Council, could be 
associated with this and feel some ownership. I think that was 
an important step in terms of strengthening the military 
dimension of the coalition.
    But equally important was the establishment of this contact 
group. It was chaired in London by the U.K. and Qatar. They 
will now be--or the meeting was there. The formal contact group 
was established. The next meeting will be held in Qatar, 
chaired by Qatar, and we envision rotating co-chairs. It was a 
very broad-based group of countries, some of which are part of 
the military effort, but others who go beyond that, who are 
providing humanitarian assistance, political assistance, 
elsewhere.
    There was a very strong statement by Secretary Hague on 
behalf of the contact group in terms of the political 
objectives that you've all been discussing today, including a 
clear message that although the military is focused on ending 
the humanitarian catastrophe, that we have a broader political 
objective here, which is democratic transition.
    I think that the fact that there were important 
participants from the Arab League there as well is a strong 
signal that this is not just an effort by the United States or 
NATO. There were others, like Jordan for example, which 
participated in the contact group. So it is sending a powerful 
signal of an engagement by others and a strong commitment to 
keep this broader effort together beyond the military strikes 
themselves.
    Senator Shaheen. Do we have any intelligence--I mean that 
in the loose sense of the term--tell us whether the other 
countries in the Middle East who are witnessing demonstrations 
right now are paying attention to what's happening with the 
allied coalition with respect to Libya? Is it having any kind 
of effect in Syria, for example, in Yemen, in others, in Egypt? 
I mean, the places where they've also experienced an uprising.
    Mr. Steinberg. I think it's always perilous to assert a 
direct linkage. You can only sort of watch what's happening. 
But I think if you look at countries where we have seen 
problems with the reaction against peaceful demonstrations, 
that I do think there is some sense that people recognize that 
there are costs and risks associated with this.
    I think in our engagement with our friends in Bahrain and 
elsewhere I think it's helpful for them to see that we do 
respond when there is unjustified violence against civilians. I 
hope the message is clear to President Assad. I think tomorrow 
will be a very important day in light of the speech that he 
gave and the failure to address many of the legitimate 
aspirations of the Syrian people.
    Senator Shaheen. Thank you. My time is up.
    Mr. Steinberg. Thank you.
    The Chairman. Thank you very much, Senator Shaheen.
    Thank you very much, Mr. Secretary. I'd just say in 
closing, unless Senator Lugar has additional questions, that in 
my meetings with Mahmoud Jabril I had a sense of clarity and 
seriousness of purpose and certainly even a gravitas about what 
their responsibilities are and the direction they're moving in.
    So I think the more we can give them--I think that's the 
wrong word. The more they can give themselves shape and form in 
the next days and the more we can perhaps open up an 
opportunity for people to feel who they really are, I think 
that would help people's understanding of where we're going 
here.
    Mr. Steinberg. I think, Senator, if I could just say in 
closing, that we have encouraged representatives to come here, 
as you've said. I think it's important that there be more 
engagement. I think we haven't mentioned it, but I think it's 
also Ambassador Aujawi, who is here, Ambassador Shagam in New 
York. There are a number of important voices that we're 
hearing, and we encourage them to engage both with the American 
public and with you, and we obviously encourage you to engage 
with them.
    I understand the sense of frustration of not fully knowing 
them, but it is a work in progress, and we can shape this by 
our own positive engagement.
    The Chairman. I couldn't agree with you more.
    Thank you very much. I think it was very helpful today. We 
appreciate it, and we stand adjourned.
    [Whereupon, at 3:57 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Deputy Secretary James Steinberg to Questions
                 Submitted by Senator Richard G. Lugar

    Question. During your testimony, you indicated that the 
administration interprets U.N. Security Council Resolution 1973 to 
create authority for states to provide arms to the Libyan opposition, 
notwithstanding the prohibition on the supply, sale, or transfer of 
arms to Libya provided for in U.N. Security Council Resolution 1970.

  <bullet> Please explain the basis for this interpretation.

    Answer. Paragraph 9 of UNSCR 1970 imposed an arms embargo against 
Libya. Paragraph 4 of UNSCR 1973, however, authorizes Member States to 
``take all necessary measures, notwithstanding paragraph 9 of 
resolution 1970 (2011), to protect civilians and civilian populated 
areas under threat of attack in'' Libya. The phrase, ``all necessary 
measures'' is very broad language, including but not limited to the 
authorization of the use of force. By explicitly providing a 
``notwithstanding'' provision in relation to the arms embargo, 
paragraph 4 confirms that the arms embargo is subordinate to the 
authorization to use all necessary measures to protect civilians.

  <bullet> Under the administration's interpretation, are states also 
        free to provide arms to the Qaddafi regime for the purpose of 
        allowing it to protect civilians in populated areas it controls 
        from potential attacks by the Libyan opposition?

    Answer. This is a regime with a brutal track record of attacks 
against its own civilian population. It is not credible to suggest that 
the provision of arms to the Qaddafi regime would serve the purpose of 
protecting civilians or civilian-populated areas under threat of attack 
in Libya.

  <bullet> What considerations will the administration weigh in 
        deciding whether to provide arms to the Libyan opposition?

    Answer. The United States is not providing lethal equipment to the 
Libyan opposition or the Libyan Transitional National Council. We are 
assessing and reviewing options for the types of assistance we could 
provide to the Libyan people, and are consulting directly with the 
opposition and our international partners about these matters. As part 
of any decision to provide nonlethal or other assistance to the 
opposition, we would consider whether it will meet a specific need of 
the Libyan people, be used for its intended purpose and to what extent 
there is the risk of diversion to, and misuse by, unintended 
recipients. Through our envoy in Benghazi, we continue to engage the 
Libyan Transitional National Council (TNC) to assess their needs and 
better understand their composition, organization, and goals.

  <bullet> What assurance does the administration have that any arms 
        provided to the Libyan opposition will be used exclusively for 
        the purpose of protecting civilians from attack or threat of 
        attack, and not for other purposes, including the conduct of 
        offensive military operations or the sale or transfer of the 
        arms to third parties?

    Answer. The United States has not provided lethal equipment to the 
Libyan opposition or the TNC. We have emphasized to the TNC the need to 
use any assistance provided to it in a manner that respects the human 
rights of all people and to prevent diversions of any equipment we 
provide from opposition forces to other actors. In addition, we would 
consider the risk posed by misuse of any equipment provided when 
determining what assistance to provide.

    Question. The administration voted in favor of U.N. Security 
Council Resolution 1970, which refers the situation in Libya since 
February 15, 2011, to the Prosecutor of the International Criminal 
Court for the investigation and possible prosecution of crimes within 
the ICC's jurisdiction.

  <bullet> In the event that the ICC referral proves an obstacle to 
        persuading Qaddafi to relinquish power, what options would the 
        administration have for seeking termination or suspension of 
        the referral?
  <bullet> Would the administration be prepared to support a negotiated 
        settlement of the situation in Libya under which Qaddafi would 
        leave power and be guaranteed safe passage to a country that is 
        not obligated to cooperate with the ICC?

    Answer. The President has made clear that any political solution in 
Libya must include the departure of Qadhafi from power to ensure that 
the Libyan people have the freedom to determine their own political 
future. Turkey and the African Union, among others, have put forward 
proposals to resolve the crisis and we continue to discuss these and 
other potential solutions with our allies and partners, including U.N. 
Envoy al-Khatib. The United Nations Security Council referred the 
situation in Libya since February 15 to the Prosecutor of the 
International Criminal Court (ICC), who is currently reviewing the 
matter, and at this point the administration has made no determination 
that it would be necessary to support termination or suspension of the 
ICC proceedings as part of an effort to ensure that Qaddafi 
relinquishes power.

    Question. Administration officials have repeatedly cited the 
``limited duration'' of U.S. military operations in Libya in arguing 
that congressional authorization was not needed prior to the initiation 
of hostilities the operations. What is the administration's envisioned 
end date for U.S. military operations in Libya?

    Answer. ``Duration'' is only one element of the analysis of whether 
prior congressional authorization was required for initiation of the 
Libya operations. Specifically, the Department of Justice's Office of 
Legal Counsel concluded that, given the limited nature, scope, and 
duration of the anticipated military operations, as well as the 
national interests at stake, those operations did not constitute a 
``war'' in the constitutional sense requiring prior congressional 
authorization, and it fell within the President's lawful authority to 
deploy U.S. forces.
    The United States has already shifted to a supporting role in what 
is now a NATO operation. The precise end point for this limited mission 
will depend in good measure on how facts continue to develop, making it 
premature to state a definitive date at this time.

    Question. How long does the administration believe military 
operations in Libya may proceed before congressional authorization will 
be required in order for them to continue?

    Answer. The answer to this question is dependent on how the 
operation develops over time and thus cannot be answered in the 
abstract; the duration of our activities is not determinative. The 
nature and scope of the operation also affects the analysis. Regardless 
of whether congressional authorization is required, this administration 
welcomes a dialogue on our policy in Libya and will continue to consult 
with Members of Congress in order to obtain their views regarding the 
mission.

    Question. Administration officials have indicated that any oil 
sales by the Qadhafi regime would result in funds landing in blocked 
accounts.

  <bullet> Please provide information on oil shipments from Libya since 
        the beginning of Operation Odyssey Dawn, including their origin 
        and the quantities involved

    Answer. We are not aware of any shipments of hydrocarbons from the 
territory controlled by the regime since the beginning of Operation 
Odyssey Dawn. There has been one shipment of crude oil from TNC 
controlled Tubruq with an approximate volume of 1 million barrels. 
Qatar arranged for the final disposition of this shipment in early 
April.

    Question. If the opposition forces were to export oil, are 
mechanisms available for them to receive funds via nonblocked accounts? 
Is there any international supervision in place to ensure those funds 
are not misappropriated?

    Answer. We support the resumption of oil and gas sales by the 
Transitional National Council. We are currently seeking views from 
Members of Congress, international partners, and allies on appropriate 
mechanisms for pursuing this consistent with applicable legal 
constraints, and taking into account the need to ensure the funds are 
used as intended.

    Question. There has been discussion of using blocked Libyan assets 
to reimburse the U.S. Treasury for the costs incurred by the U.S. 
Government in Libya.

  <bullet> Does the administration believe it has the legal authority 
        to use blocked assets for such purposes?
  <bullet> Does the administration have a view as to the advisability 
        of using these funds for such purposes?

    Answer. The administration has been considering various approaches 
for vesting, including possible uses of any assets. Consistent with 
United Nations Security Council Resolution 1973, we believe that, if 
assets were to be vested, they should be used for the benefit of the 
Libyan people. We would welcome an opportunity to consult with Members 
of Congress about what uses that might encompass.
                                 ______
                                 

       Responses of Deputy Secretary James Steinberg to Questions
                     Submitted by Senator Mike Lee

    I want to begin by expressing my support and appreciation for the 
men and women of the United States armed services who, on a daily 
basis, are willing to fight for the security of our Nation.
    Any time that we ask our military to be prepared to make the 
ultimate sacrifice--as is inherently the case when military action 
occurs--we must show that it is for a very good reason. When the 
security of the United States, our people, or our allies is threatened, 
I will give my complete support to military missions to ensure our 
safety and their success.
    Over the last few weeks, I have failed to see a link between what 
occurred in Libya and any direct threat to the security of the United 
States. In addition, I have serious concerns about the methodology--and 
lack of constitutional or legal authority--the administration employed 
in regards to our military actions in Libya.
    I understand that Senator Lugar has called for further hearings in 
this committee on Libya. I strongly support such hearings.

    Question. On March 19, President Obama ordered U.S. military forces 
to strike Libyan military targets to enforce a no-fly zone and other 
provisions of U.N. Security Council Resolution 1973. Under what 
constitutional authority did President Obama act?

  <bullet> a. Does the administration believe it is acting legally 
        under the War Powers Resolution? If so, please explain.

    Answer. To the extent your question concerns the President's 
constitutional authority to deploy U.S. Armed Forces to Libya, I refer 
you to the April 1, 2011, opinion issued by the Department of Justice's 
Office of Legal Counsel (OLC). As concerns the War Powers Resolution 
(WPR), while the administration has stated that U.S. military 
operations in Libya are consistent with the WPR, the President also 
made clear in his letter to Congress dated May 20, 2011, that it has 
always been his view that ``it is better to take military action, even 
in limited actions such as this, with congressional engagement, 
consultation, and support.'' S. Res. 194, the bipartisan resolution on 
United States military operations in Libya introduced by Senators 
McCain, Kerry, Lieberman, Levin, Feinstein, Graham, and Chambliss, 
fully captures the importance of congressional consultations by asking 
for an additional report to Congress about U.S. policy objectives in 
Libya and regular consultations on progress toward meeting them. 
Moreover, this resolution would present the wider world with a formal, 
unified position of the U.S. Government, help us continue to enlist the 
support of other countries in maintaining and expanding the coalition, 
and strengthen our ability to shape the course of events in Libya. As 
Members of Congress consider the resolution, the administration will 
continue to consult closely with them on any ongoing military 
operations.

  <bullet> b. Is the administration using, or does it plan to use, the 
        Authorization for use of Military Force Against Terrorists 
        (enacted September 18, 2001) as justification for military 
        action in Libya?

    Answer. The legal framework for our military actions in Libya is 
discussed in the OLC opinion of April 1 and in the President's letter 
of May 20, both as discussed above, and I refer you to those documents 
for an explanation of our justification.

    Question. Despite the subsequent debate and disagreement over the 
United States military role in Afghanistan and Iraq, President Bush 
sought and received resolutions from Congress to proceed in both 
instances. Please outline the steps the administration took to consult 
Congress before intervening militarily in Libya.

    Answer. The Department of State defers to the Department of Defense 
for the answer to this question.

    Question. Given that pro Qaddafi forces are currently beating the 
rebels (who appear to be disorganized and poorly equipped), is the 
United States going to provide arms to the Libyan rebels?

  <bullet> If so, what, if any, training will be involved before 
        handing over such arms?
  <bullet> If not, will the President consult with Congress before 
        arming rebel forces?

    Answer. The United States is assessing and reviewing options for 
the types of assistance we could provide to the Libyan people, and have 
consulted directly with the opposition and our international partners 
about these matters.
    We have seen the media reports indicating that others may be 
providing arms to the opposition. Resolutions 1970 and 1973, read 
together, neither specify nor preclude this, but we have not yet made a 
decision to provide arms to the opposition.

    Question. Reports indicate that the Libyan rebels include some 
level of al-Qaeda presence. What efforts is the administration taking 
to ascertain the level of al-Qaeda influence within the Libyan rebels 
organization, and how will that affect our decision to support them?

    Answer. There is certainly the potential that extremist groups 
could try to take advantage of the situation, and we are being very 
careful with whom we deal. On the other hand, the dangers of Qadhafi 
returning to terrorism and destabilizing the region also exist. Our 
challenge is to help the Libyan people navigate this transition in a 
way that preserves our strategic interest in preventing the spread of 
extremism. Continued dialogue with the members of the opposition is a 
key step toward this goal.
    Members of our Embassy in Tripoli, now back in Washington, know a 
number of the Transitional National Council (TNC) members well--
including Chairman Mustafa Abdel Jalil and Co-Coordinator for Foreign 
Affairs Mahmoud Jibril--having interacted with them when they were 
members of the Libyan Government. Ambassador Cretz and others at the 
State Department consult regularly with TNC representatives. In 
addition, our envoy to the Council arrived in Benghazi on April 5 and 
has had several productive meetings with high-level members of the 
Council, including Chairman Abdel Jalil.
    In these engagements, TNC members have stressed that the opposition 
represents a secular, national, and popular movement. They have also 
emphasized the transitional nature of the Council, which would focus on 
a democratic transition for Libya in any post-Qadhafi future. During 
the last week of March, the TNC issued a statement laying out its 
vision for an inclusive, democratic Libya, as well as a statement 
unequivocally rejecting terrorism and extremist influences.

    Question. In the context of other Middle Eastern countries such as 
Iran, Yemen, and Syria, is Libya the greatest threat to the security of 
the United States in that region? Is Libya a greater threat to the 
security of United States than North Korea?

    Answer. Faced with peaceful demonstrations calling for political 
reforms, the Qadhafi regime answered with brutal, deadly force. Qadhafi 
promised ``no mercy'' to any who opposed him and threatened to hunt 
people down from ``house to house.'' The regime employed snipers, 
tanks, and rockets against civilians and civilian populated areas and, 
prior to the intervention of the United States and its partners, was 
marching on the city of Benghazi to continue the violence. Left 
unchecked, we have every reason to believe that Qadhafi would have 
committed atrocities against Libyan civilians there, leading to a 
humanitarian crisis and thousands of civilian deaths. His actions could 
have destabilized the entire region, endangering many of our allies and 
partners and especially threatening the fragile transitions to 
democracy occurring in Tunisia and Egypt.
    As part of a broad international coalition, and under the mandate 
of a United Nations Security Council resolution, the United States had 
a window of opportunity to take immediate action to neutralize this 
imminent threat. We initially employed our unique capabilities to 
establish a no-fly zone and protect civilians, and have since 
transitioned leadership of the operation and responsibility for combat 
sorties to NATO. Our engagement in Libya has not diminished any other 
ongoing strategic security efforts across the world, including working 
to prevent Iran from obtaining nuclear weapons, to verifiably 
denuclearize North Korea in a peaceful manner, to neutralize al-Qaeda, 
and to terminate Syria's support for regional extremists, among others.

    Question. What is the end state (or the ultimate military goal) of 
U.S. military action in Libya? What is the extent of our military 
involvement in Libya now that the no-fly zone has been established? Is 
it possible to complete our military mission in Libya with Qaddafi 
still in power?

    Answer. The goal of the United States military operations in Libya 
is to enforce, in coordination with NATO and our other international 
partners, the mandate of UNSCR 1973 to protect civilians and civilian 
populated areas. During the initial stages of military action in Libya, 
the United States employed its unique capabilities to help establish a 
no-fly zone, stop the advance of regime forces and prevent a massacre 
in Benghazi. Since then, we have transitioned leadership of the 
operation and responsibility for combat sorties to NATO.
    We firmly believe that a free Libya is in the best interest of the 
Libyan people and do not see that as an outcome with Qadhafi in power. 
While regime change is not one of our military objectives, we believe 
that Qadhafi must give up power. We continue to pursue a number of 
nonmilitary measures, including sanctions, that we believe will 
maintain pressure on him to do so, and will seek to hold him 
accountable for his actions.

                                  <all>

</pre></body></html>
